<html>
<title> - REAUTHORIZING THE HIGHER EDUCATION ACT: THE ROLE OF CONSUMER INFORMATION IN COLLEGE CHOICE</title>
<body><pre>[Senate Hearing 114-610]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-610

     REAUTHORIZING THE HIGHER EDUCATION ACT: THE ROLE OF CONSUMER 
                     INFORMATION IN COLLEGE CHOICE

=======================================================================

                                HEARING

                                OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING REAUTHORIZING THE HIGHER EDUCATION ACT, FOCUSING ON THE ROLE 
               OF CONSUMER INFORMATION IN COLLEGE CHOICE

                               __________

                              MAY 6, 2015

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
94-613 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa8bfa08facbabcbba7aaa3bfe1aca0a2e1">[email&#160;protected]</a> 
                  
      
      


               COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming			PATTY MURRAY, Washington	
RICHARD BURR, North Carolina			BARBARA A. MIKULSKI, Maryland		
JOHNNY ISAKSON, Georgia				BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky				ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine				AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska			        MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois				SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina			TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah				CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas				ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana
                  David P. Cleary, Republican Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)
  
                             C O N T E N T S

                               __________

                               STATEMENTS

                         WEDNESDAY, MAY 6, 2015

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     3
Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana...    41
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    43
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    45
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    46
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    48
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    50

                               Witnesses

Schneider, Mark, Ph.D., Vice President and Institute Fellow, 
  American Institutes for Research, and President, College 
  Measures, Washington, D.C......................................     6
    Prepared statement...........................................     8
Santiago, Deborah A., Chief Operating Officer and Vice President 
  for Policy, Excelencia In Education, Washington, DC............    13
    Prepared statement...........................................    15
Lightfoot, Stacy, Vice President of College and Career Success 
  Initiatives, Public Education Foundation, Chattanooga, TN......    21
    Prepared statement...........................................    23
Mitchell, Taleah, Graduate, Seattle Central College, Seattle, WA.    29
    Prepared statement...........................................    31

                                 (iii)

  

 
     REAUTHORIZING THE HIGHER EDUCATION ACT: THE ROLE OF CONSUMER 
                     INFORMATION IN COLLEGE CHOICE

                              ----------                              


                         WEDNESDAY, MAY 6, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Scott, Cassidy, Murray, Casey, 
Franken, Bennet, Whitehouse, Murphy, and Warren.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    This morning we are holding our second hearing in this 
Congress on the reauthorization of the Higher Education Act, 
which will focus on the role of consumer information in college 
choice.
    Senator Murray and I will each have an opening statement. 
Then we will introduce our panel of witnesses. After our 
witness testimony, Senators will have 5 minutes of questions.
    This is our second higher education hearing, but we have a 
good head start. Last Congress, we held 13 hearings on higher 
education, and all but two of our Members who are on this 
year's committee were on last year's committee.
    We also have a head start in the sense we have several 
bipartisan pieces of legislation that are on this subject of 
Higher Education reauthorization.
    There is the FAST Act that Senators Bennet, Booker, Burr, 
King, Isakson, and I introduced that was based on testimony 
before this committee from last year about simplifying Federal 
student aid and reducing borrowing.
    There is the REPAY Act. Senator Burr, along with Senators 
King, Warner, Rubio, Collins, and I have introduced that. That 
would simplify loan repayment.
    Then Senator Mikulski, Burr, Bennet, and I are planning to 
introduce legislation to incorporate many of the 
recommendations from the report we asked for on Federal rules 
and regulations governing colleges and universities and how to 
simplify them.
    Senator Murray and I will work together to put all this and 
other information into a bipartisan process for reauthorizing 
the Higher Education Act. I hope we can produce a bill for that 
this fall. This now becomes the major effort of our committee, 
now that the committee has finished its work on the Elementary 
and Secondary Education Act.
    We are here today to examine what students want and need to 
know in order to make their college choices and look at whether 
this matches up with the information the Federal law requires 
colleges to collect. It is important to note that since 1944 
with the GI bill for veterans, Federal aid has followed 
students to the colleges of their choice. American college 
students have lots of choices, more than 6,000, and to make a 
smart choice, students need information.
    The Federal Government collects and disseminates 
information on colleges and universities. The testimony we will 
hear today will say it does a better job of collecting than 
disseminating. We will talk about that. That requires time and 
money from the institutions. I have an example here of the data 
survey that each of our almost 1,000 public community colleges 
must fill out. Every one of our 2-year schools has to fill this 
out. The other 5,000 colleges and universities have a similar 
document they fill out. This one is 426 pages of data 
requirements and reporting instructions, 3,300 different 
necessary responses or inputs. The question is, are all those 
necessary? Are all those useful to students?
    Last year, the National Association of Student Financial 
Aid administrators issued a report on federally mandated 
college consumer disclosures. They have lent me this 900-page 
binder to show what one university with two campuses is 
required to disclose. Most of this is made public on the 
institution's website, but the law and regulations prescribe a 
dizzying variety of ways the different disclosures must be sent 
to current students and, upon request, the public. Items range 
from the useful and necessary such as terms and conditions of 
student aid to such things as informing students when 
Constitution Day is.
    The question is, is all this necessary? The more important 
question is, how much of this is actually useful to students 
making a college choice? The president of that association 
suggested that with such an overwhelming amount of information 
students will have a hard time making good use of it.
    We have this phenomenon in too many areas of life today. 
For example, if you get a mortgage loan or if you buy a car, 
you are provided with so much consumer information, it may not 
help you.
    At colleges, the burden of getting this information to the 
student falls in most cases on the financial aid offices. This 
takes away time and money from other important activities like 
counseling students about loans or the careers they might 
follow. Ninety percent of college administrators, those who 
work every day with this information, say the requirements--
many of them could be eliminated or modified or improved, and 
they are among the most burdensome part of higher education 
regulation.
    I got a note from the president of the Missouri Baptist 
University the other day, whom I do not know, and he said,

          ``I have been in higher education administration for 
        over 40 years, the last 20 as university president. I 
        have never experienced the amount of regulatory 
        pressure our institution currently faces.''

    What I just discussed is only a part of the mandates on 
colleges and universities by the Federal Government. When we 
reauthorized the Higher Education Act in 2008, I brought a copy 
of all the regulations, sub-regulations, the guidance, dear 
colleague letters, and forms. I brought them to the Senate 
floor. I stacked them up, and they were as tall as I was. The 
new law produced even more.
    I mentioned earlier the report that four members of this 
committee have commissioned on higher education regulations. 
That commission found what it called a jungle of red tape 
strangling colleges and universities, overloading consumers 
with an enormous amount of information.
    They listed information that was an overload among the top 
10 areas they identified as particularly burdensome, such 
questions about copyright infringement or how many fire drills 
the institution holds each year.
    The question is, do the students actually need and use this 
information? The most well-known Federal consumer tool is the 
College Navigator, which came from the last Higher Education 
Act. If you print out information from the College Navigator--
and you will excuse me for going on a little bit here--this is 
the College Navigator for the University of Tennessee. I tried 
to navigate it myself this morning. It is hard to read. I am 
not sure it helps students very much. It is a lot of 
information, takes a lot of time to do it.
    Two years ago, the White House added a new Federal tool, 
the College Scoreboard. The Center for American Progress looked 
at it and summarized it this way: What am I looking at?
    We know students are not using Federal websites for 
college. One survey showed only 18 percent of prospective 
adults used any interactive website to compare colleges. The 
College Board found only 12 percent of high school students 
reported using Government tools to learn about college costs. 
Consumer information that is too complicated to understand or 
to use is worthless.
    She can speak for herself, but Senator Warren understands 
this. In her time at the Consumer Financial Protection Bureau, 
she tried to boil down the mortgage disclosure form to a 2-page 
shopping sheet, if I remember right, so people could actually 
understand what they were getting.
    This leads to these questions. How might consumer 
information actually become useful for prospective students and 
families? What better information may be needed? And what 
requirements can we eliminate?
    We have a panel of distinguished witnesses here today with 
hands-on knowledge of how prospective families and students use 
information to decide upon a college. This is a bipartisan 
hearing, which means Senator Murray and I have jointly selected 
the witnesses. We learn more that way. I want to thank her for 
working with me in that way, and I now recognize Senator Murray 
for her opening comments.

                  Opening Statement of Senator Murray

    Senator Murray. Well, thank you very much, Mr. Chairman.
    Thank you to all of our witnesses, as well, for being here 
today. I believe it is important to give students a strong 
voice at the table when we create Federal policies. I am 
especially glad to see Taleah Mitchell, who is joining us from 
Washington State today. I am looking forward to your testimony 
on your experience of going back to school and navigating the 
options of furthering your education.
    Over the past several months, this committee has primarily 
been focused on fixing the badly broken No Child Left Behind 
law. We were able to work through the partisan gridlock and 
work together and reach a bipartisan compromise. I was very 
proud to join with the Chairman and pass that out of committee 
with unanimous support. We still have work to do on that 
legislation. But now that we have cleared the committee 
process, we are going to be able to focus more of our attention 
on reauthorizing the Higher Education Act.
    Access to quality and affordable higher education is 
important for students, and it is also a crucial part of 
building an economy that works for all of our families, not 
just the wealthiest few. A highly educated workforce is good 
for our economy. It strengthens the middle class. It 
strengthens the workforce we will need to compete in the 21st 
century global economy. I believe we should be working on ways 
to help more students earn their degree and gain that foothold 
into the middle class.
    There are a few broad themes that I am going to be fighting 
for throughout our work to reauthorize the Higher Education 
Act. For one, we have got to reduce the crushing burden of 
student debt. Making college more affordable will be a central 
part of what I focus on throughout any discussion of higher 
education. I believe all students should have access to a safe 
learning environment as well. Strengthening protections for 
students and preventing sexual violence, assault, and bullying 
on campus is a priority. We need our education system to work 
seamlessly for students from the cradle through to their 
career, and more students from all walks of life should have 
strong, clear pathways into and through higher education.
    That is at the heart of what we will be talking about 
today. We will be discussing the role of consumer information 
in choosing between college options. The postsecondary options 
are only truly valuable if students and families have access to 
the information that actually helps them make the best decision 
for themselves, their careers, and their future. The lack of 
clear and consistent consumer data can make it difficult for 
students and families to navigate college options. It can be 
especially difficult if you are a first-generation student or a 
student from a low-income background where your pathway to 
higher education is not as well worn.
    Let us remember, the profile of a typical college student 
today is quite different than 10 years ago. So-called 
nontraditional students have become the new norm. They are more 
likely to be the first in their family to go to college, and 
before they enroll, they often already have a good idea of how 
they want to advance their careers.
    Right now, families and students are not able to access 
basic but essential consumer information on their program, 
their college or their university. In some cases, colleges have 
even put out false information misleading students about their 
job placement prospects. When students are deciding where to 
attend, they should be able to easily see accurate information 
on how much they will pay and borrow, the amount they will earn 
if they complete their degree and their chances of succeeding.
    I recently received a letter from a diverse group of 
organizations from the U.S. Chamber of Commerce to Young 
Invincibles and New America focusing on how we can improve this 
consumer information. They pointed out that the current 
restrictions on student data are unnecessary and outdated, and 
they all agree the Federal Government has an important role to 
play in collecting and reporting clear and consistent data 
about postsecondary education to promote student success.
    In reauthorizing the Higher Education Act, we have the 
opportunity to improve and streamline the current system. So, 
instead of the illusion of choice, students will have 
meaningful information to help them make an informed decision. 
That is something I will be pushing for.
    I am looking forward to hearing from our panel today on how 
to strengthen students' pathways to higher education so they 
complete their degrees and how to ensure our system can work 
seamlessly for all of our students because expanding access to 
higher education could not be more important for students who 
want to gain a foothold in the middle class.
    Again, thank you to all of our witnesses today.
    Mr. Chairman, thank you very much for having this hearing.
    The Chairman. Thank you, Senator Murray.
    I am pleased to welcome our witnesses. I will introduce 
three, and then Senator Murray will introduce one.
    The first witness will be Mark Schneider, vice president 
and institute fellow with the American Institutes for Research. 
Prior to joining the Institute, Dr. Schneider was Commissioner 
of the National Center of Education Statistics at the U.S. 
Department of Education. His current work is focused on 
increasing accountability through improved public disclosure of 
data related to institutional productivity at the State level.
    Our next witness, Ms. Deborah Santiago, co-founder, chief 
operating officer, and vice president for Policy at Excelencia 
in Education. She co-founded Excelencia in Education to 
accelerate Latino student success in higher education, and some 
of her recent work has involved how to best provide information 
to students. She has served in a number of policy and advisory 
roles at the Department of Education and at the White House.
    Our third witness today is from Tennessee. Stacy Lightfoot 
is vice president of the College and Career Success Initiatives 
at the Public Education Foundation located in Chattanooga. In 
her role, Ms. Lightfoot trains local high school guidance 
counselors to help students in finding the right college to 
best meet that student's needs. She has earned several awards 
at the State, local, and national levels in recognition of her 
work in the college-going process. She earned her bachelor's 
degree in communications from DePauw University in Indiana, and 
her master's degree in international service from the 
University of Roehampton, during which she spent teaching in 
Jamaica.
    I now turn to Senator Murray to introduce our final 
witness.
    Senator Murray. Well, thank you very much, Mr. Chairman.
    I am very pleased to introduce Taleah Mitchell, who came 
all the way from Washington State to be here today. Taleah 
recently went through Washington State's integrated basic 
education and skills training program, or what we call I-BEST, 
at one of our State's largest community colleges. Taking 
classes at Seattle Central College, Taleah was able to learn 
the skills she needed to forge a clear career path. She 
recently earned a certification in business information 
technology and an associate degree in computer science and 
women and gender studies and now works at a major company in 
Seattle.
    As members of the committee will hear in just a bit from 
her, Taleah's story underscores the important role of adult 
education and its potential to help so many other Americans who 
did not think they needed or even had the chance to get a 
college degree.
    Taleah, thank you for coming all the way here. I look 
forward to hearing your testimony today. Thank you.
    The Chairman. Thank you, Senator Murray.
    We look forward to everyone's testimony. May I suggest that 
you try to summarize your testimony in about 5 minutes, and 
that will give the Senators more of a chance to have a 
conversation with you. We will start with Dr. Schneider.

    STATEMENT OF MARK SCHNEIDER, Ph.D., VICE PRESIDENT AND 
    INSTITUTE FELLOW, AMERICAN INSTITUTES FOR RESEARCH, AND 
          PRESIDENT, COLLEGE MEASURES, WASHINGTON, DC

    Dr. Schneider. Thank you. It is my pleasure to be here. As 
noted, I am Mark Schneider, and again, thank you so much for 
the opportunity to talk with you.
    As noted, I had the honor of serving as the Commissioner 
for the National Center of Education Statistics from 2005 
through 2008. While I was there, NCES redesigned many of its 
consumer facing tools to allow easier access to data. I was 
actually going to claim credit for the College Navigator, but I 
am not so sure if I should do that now.
    [Laughter.]
    I was also faced with the constant struggle to balance 
compelling Federal interests with an equally compelling need to 
honor the role of the States as partners in any efforts to 
improve consumer information about postsecondary education.
    Much of my current work at AIR and at College Measures 
involves documenting the labor market experiences of students 
as they complete their studies at colleges and universities and 
move into and through the workforce.
    These experiences lead me to believe that we can and should 
organize consumer information into five different categories 
that students and their families need to ask questions about 
and get answers to these questions in order to better inform 
their decisions about where to enroll and what to study.
    The five questions for me are: Will I get in? Selectivity. 
Will I get out? Graduation Rates. How long will it take? Time 
to degree. How much will I pay? And how much will I earn?
    With these pieces of information, we can construct the 
equivalent of return on investment calculations that should aid 
students in understanding where to best allocate and invest 
their time and money.
    As we think about these five questions and how to answer 
them, there are four cross-cutting issues that we need to 
always keep in mind.
    First, any efforts to develop consumer information about 
postsecondary education must--absolutely must--contain 
information about subbaccalaureate credentials. The interest in 
associate degrees and certificates granted by community 
colleges is growing much more rapidly than the demand for any 
other kind of information.
    Second, the United States must break what I call its 
``bachelor's addiction.'' Yes, the bachelor's degree is a great 
degree, and for most people, it has a good return on the 
investment. The fact of the matter is that subbaccalaureate 
credentials can put students directly into the middle class and 
many students earning technical degrees from community colleges 
can out-earn bachelor degree students. We have to move beyond 
the bachelor's addiction.
    Third, we need to battle our fixation on institution level 
data. We all love league tables. We all like to look at how my 
university is doing compared to other universities. These 
league tables at the institution level is dangerous. It is a 
distraction because there is more variation across student 
outcomes by program than there is by institution. We need data 
at the program level way beyond the institution level.
    Finally, gathering the information is not enough. Getting 
information into the hands of consumers is a giant challenge, 
and it is not clear to me that the Federal Government, which 
has an enormous capacity to create and collect the data, 
actually has that capacity to disseminate it.
    I just want to spend a minute or so on the last question 
that I posed above, and how much will I make? Because 
ultimately, most students say the reason they go to college is 
to have a good career and have high wages.
    For a variety of reasons detailed in my written testimony, 
I believe Congress needs to find a way to allow student data to 
be matched with Federal tax data collected by the IRS and to 
have these data more widely used and distributed. I understand 
that this is fraught with privacy concerns, but I believe that 
we have the capacity to protect these data. There are strong 
statistical methods to protect these data and make them secure.
    I believe that since the Federal Government has such a 
compelling interest in the outcome for students that are 
getting title IV student aid, a reasonable place to start is 
merging the Federal income tax data with FSA data, but this has 
to be done at the program level, not at the institution level. 
I believe that these data should be made widely available to 
researchers and to Federal departments. The Federal Government 
does not share data very well with each other.
    Of equal importance, I believe that the Federal Government 
should make clear a policy allowing State governments to match 
their much more complete student data with Federal tax data. In 
this way, we could move beyond the measurement of student 
outcomes beyond the 60 percent covered by the FSA data and we 
could use the more complete sweep of State-held student data 
for detailed analysis consistent with State policy needs.
    To conclude, I think that the Federal Government can and 
should create high quality data, but that the dissemination 
should be left to others. The data should be put in the hands 
of private companies and State governments, not-profit 
organizations that could experiment with a variety of measures 
and metrics and a variety of ways of producing those data and 
getting them into the hands of consumers.
    Thank you so much.
    [The prepared statement of Dr. Schneider follows:]
              Prepared Statement of Mark Schneider, Ph.D.
                                summary
    I believe that we can and should organize consumer information into 
five different questions that students and their families need to ask 
(and answer) to better inform their postsecondary education decisions 
about where to enroll and what to study.

    1. Will I get in? (Selectivity).
    2. Will I get out? (Graduation rates).
    3. How long will it take? (Time to complete).
    4. How much will I pay? (Net price).
    5. How much will I make? (Post completion earnings).

    Answering each of these questions presents challenges, but none are 
insurmountable. We can make progress with the measures the Federal and 
State governments already collect. We can and should do better--all the 
while protecting the privacy of these data and minimizing the burden on 
States, which will likely have to provide much of the data needed to 
answer these questions.
    My work with Andrew Kelly, ``Filling in the Blanks'', shows that 
choices across postsecondary institutions can be improved by good data 
presented simply. How we proceed to provide this information will 
matter. To ensure widespread use, we can distinguish at least three 
audiences for these data: Students, their families and the guidance 
counselors who help students find and choose schools; State 
policymakers; and Federal policymakers.
    While the underlying data these audiences need may be the same, the 
way in which the data are presented and which strands are highlighted 
will vary.
    The Federal Government is in the position to create a consumer-
oriented database that can answer all five questions identified 
earlier. However, it is far from the best actor when it comes to 
disseminating the data in a usable form. Rather, I believe the Federal 
Government should help create high quality data and then make the data 
widely available to States and the private sector and encourage the 
creation of applications based on these data. Many efforts will 
inevitably follow, as States, companies and not-for-profit 
organizations experiment with different user interfaces, emphasizing 
different metrics. This competition will likely yield the best 
solutions to the need for better, more widely used consumer information 
about the large and growing number of postsecondary options available 
across the land.
    All of this work should be done in close cooperation with State 
governments and must proceed cautiously, considering privacy issues and 
minimizing reporting burdens placed on States.
                                 ______
                                 
    Good morning, Chairman Alexander, Ranking Member Murray, and 
distinguished Members of the committee. My name is Mark Schneider and I 
wish to thank you for the opportunity to share some of my views on 
consumer information and postsecondary education.
    I had the honor of serving as the Commissioner of the National 
Center for Education Statistics from 2005 through 2008. During that 
time, NCES created College Navigator, still one of the most heavily 
used sites run by the U.S. Department of Education. While I was 
commissioner, NCES also redesigned other consumer facing tools, such as 
the NAEP Data Explorer, to allow easier access to NCES data. I also 
constantly struggled to balance compelling Federal interests with the 
equally compelling need to honor the role of the States as essential 
partners in any efforts to improve consumer information about 
postsecondary education.
    Previous to my joining NCES, I was a distinguished professor of 
political science at the State University of New York at Stony Brook, 
where I developed expertise assessing how information can help inform 
school choice. That work was focused on K-12 education and in the early 
2000s led to the creation of DCSchoolSearch.com, one of the first 
attempts to help parents access information about the performance of 
all DC public schools, traditional and charter.
    Much of my current work at the American Institutes for Research and 
at College Measures\1\ involves detailing the labor market experiences 
of students as they complete their studies at colleges and universities 
and move into and through the workplace.
---------------------------------------------------------------------------
    \1\ The American Institutes for Research AIR is one of the world's 
largest behavioral and social science research and evaluation 
organizations. Founded in 1946 as a not-for-profit organization, AIR is 
committed to using the best science available to bring the most 
effective ideas and approaches to enhancing everyday life. College 
Measures is a joint effort of AIR and Optimity-Matrix Group created to 
improve the efficiency of postsecondary education in the United States 
and to help students find programs of study that will lead to higher 
wages and better labor market outcomes.
---------------------------------------------------------------------------
    The goal of this work is to document differences in earnings over 
time and to identify postsecondary credentials with high market value. 
This work has been with State governments and my State partners all 
share a commitment to put this information into the public sphere in a 
form that is usable by different audiences. To date, College Measures 
has partnered with Arkansas, Colorado, Florida, Minnesota, Tennessee, 
Texas and Virginia.
    This work lead me to believe that we can and should organize 
consumer information into five different questions that students and 
their families need to ask (and answer) to better inform their 
decisions about where to enroll and what to study.

    1. Will I get in? (Selectivity).
    2. Will I get out? (Graduation rates).
    3. How long will it take? (Time to complete).
    4. How much will I pay? (Net price).
    5. How much will I make? (Post completion earnings).

    The first question springs naturally to the minds of many 
students--driven by the quest for admission to the most visible and 
most selective universities in the Nation, institutions that have 
acceptance rates that makes admission only slightly more likely than 
winning a State lottery. The last question about earnings is of great 
importance to students; depending on the survey, around 80 percent or 
more of students queried say that getting a good job and strong 
earnings are among the most important reasons they go to college. We 
have the responsibility to help them identify programs that will help 
them achieve that goal.
    Most students probably don't pay enough attention to questions 2 
and 3, because they assume that they will graduate on time. However, we 
know that there is wide variation in both graduation rates and time to 
degree and that this variation is consequential to the success students 
will experience in the labor market and their ability to pay off their 
loans. Finally, the Nation has made progress on publicizing the 
difference between sticker and net price, but we still have much work 
to do on measuring the difference between these two sets of prices and 
letting people know about their true cost of getting a postsecondary 
credential.
    Answering each of these questions presents challenges, but none are 
insurmountable. We can make progress with the measures the Federal and 
State governments already collect. We can and should do better--all the 
while protecting the privacy of these data and minimizing the burden on 
States, which will likely have to provide much of the data needed to 
answer these questions.
    Before turning in more detail about some of the challenges in 
developing consumer information in each of these five categories, I 
turn to four issues that cut across all of them.
    First, any efforts to develop consumer information about 
postsecondary education must include information about subbaccalaureate 
credentials, such as associate's degrees and certificates, most of 
which are delivered by America's community colleges. One reason is 
evident by looking at trends in student enrollments: The number of 
subbaccalaureate degrees granted in the United States is growing more 
rapidly than the number of bachelor's degrees awarded. Last year, 
subbaccalaureate awards granted almost equaled the number of bachelor's 
degrees issued, although the bachelor's degree still remains the most 
commonly granted college credential.
    Second, the United States must break its ``bachelor's addiction.'' 
Empirically, the bachelor's degree is a good investment--on average and 
in the long run. However, many students do not have the time, money or 
inclination to pursue this degree. There is consistent empirical 
evidence, much of it produced by College Measures, that 
subbaccalaureate credentials can lead to earnings that exceed those of 
bachelor's graduates and that place students earning those credentials 
squarely in the middle class. The data also show that the 
subbaccalaureate credentials with the most market value produce 
students who know how to fix things (e.g., technicians) or how to fix 
people (e.g., health care). These credentials can help the Nation fill 
the need for ``mid-skilled'' level workers, where some postsecondary 
training but not a bachelor's degree are the usual requirements.
    Third, in addition to battling our bachelor's addiction, we need to 
battle our fixation on institution level measurement. We love league 
tables that rank campuses against one another. Student outcomes can 
vary more by program of study than by institution. In other words: What 
a student studies often is more important than where they study it. In 
turn, we need to deliver usable consumer information at the program 
level.
    Finally, gathering good information is not enough--getting 
information into the hands of consumers in a format that is useful, 
usable, and used is a challenge. It is not clear to me that the Federal 
Government, which has a unique capacity to gather the data, has an 
equal capacity to disseminate it.
    With these thoughts in mind, I return to some of the issues in 
helping students understand why the answers to each of these five 
questions matter.
                             will i get in?
    We need to keep in mind that while many students and their parents 
are fixated on the competition for seats in the Nation's most 
prestigious universities, the bulk of our colleges and universities 
offer broad or open access.
    Because there are large differences in student outcomes, any data 
collected about gaining admission should help students broaden their 
choice of schools, alerting them to the many options they have, and 
steering their selection process to options that include schools that 
are higher on measures of student success.
                            will i get out?
    The limits on Federal graduation rate statistics, reported through 
IPEDS, are well-known. Most basically, they are still based on first-
time, full-time, beginning students, a declining proportion of 
America's college students. While the coverage of different student 
populations will expand in the next few years, the new graduation rate 
data will still be at the institution level.
    We need to move to the collection of program level graduation 
rates. Given the number of students who change majors (and swirl 
through campuses), this will be difficult, but we need to start down 
this path.
    Admittedly, this will add a burden on to State data systems, but we 
need to balance that burden against the rewards this information can 
have for students. To compensate, we should identify other components 
of IPEDS that are burdensome without producing commensurate benefits. 
This is a task I know this committee is taking seriously.
                         how long will it take?
    The time it takes to earn a degree is important. The longer a 
student is enrolled in pursuing a credential the more likely it is that 
``life happens,'' derailing student progress. As is well-known, 
students who don't complete their studies will usually have a harder 
time paying off their loans. Moreover, each year spent enrolled is one 
more year of tuition paid out and one more year of foregone earnings. 
While it is possible to use IPEDS to estimate the average time to 
degree for institution-level graduation rates, we need to gather time 
to degree by program. Texas already reports these data, information 
that other States should be collecting and reporting.
    Again, this may increase burden on State systems, but these data 
are far more important to help students understand the consequences of 
their choices than much of the data the Federal Government compels 
States and institutions to gather.
                         how much will it cost?
    Thanks to congressional action, the Nation has made great strides 
in making public the difference between sticker price and net price. 
However, according to recent work by Andrew Kelly at the American 
Enterprise Institute, most students still do not have good information 
about the true costs they will encounter--and they are far more likely 
to overestimate the cost of college, which can discourage attendance.
    Any tools we develop to estimate costs must allow students to enter 
personalized information. For example, in the My Future Texas 
application College Measures built,\2\ students can enter personal 
information from their own financial aid letters to compare their 
likely costs to earn a degree. The application takes into account the 
time to degree for the program in which the student is interested to 
estimate total cost.
---------------------------------------------------------------------------
    \2\ Available at http://www.myfuturetx.com/
---------------------------------------------------------------------------
                         how much will i make?
    Yes, postsecondary education is about many more things than making 
money, and, yes, college graduates usually are healthier, live longer, 
and engage in our democratic processes at higher levels than non-
graduates--but the path to all of these rewards largely runs through 
success in the labor market. In addition, students themselves 
overwhelmingly say that the prospect of good careers and strong 
earnings drives their desire for postsecondary education.
    Not surprisingly, I believe that we need program level earnings 
data. Right now, these data come from States' unemployment insurance 
(UI) wage data. Many States link their UI data to student level 
information detailing the year of graduation and program/institution of 
study, allowing detailed reporting of earnings of graduates as much as 
10 years after graduation.
    The problems with these State UI wage data are well-known: students 
who move across State lines to work are no longer found in the data 
system of the State where they earned their degree. In some States, 
such as Colorado, only around 40-45 percent of the students in the 
State's student data system can be matched to data in the unemployment 
insurance wage system. In big States like Texas and Florida, with 
booming economies, match rates are 20 percentage points higher. These 
are still low--and we don't know how much error is introduced as 
students choose to leave the State.
    Match rates also vary across institutions, with rates for graduates 
from State flagships lagging the rates from regional comprehensive 
campuses. Field of study also matters: match rates for teachers, where 
State certification matters for employment, are far higher than for 
engineers.
    The Wage Record Interchange System (WRIS 2) held out some promise 
to ameliorate the problem of interstate movement of graduates. WRIS 2 
is a consortium of over 30 States that theoretically agreed to search 
for UI wage data requested by other members of the consortium. If this 
system worked as planned, coverage would expand dramatically. However, 
some very large States are not in the WRIS 2 consortium--and States 
that are members often do not honor the requests from other States. 
Match rates hover in the single digits and about \1/3\ of the States in 
the consortium do not run requests from other member States.
    The alternative is accessing Federal tax collected by the IRS. I 
recognize and appreciate that using these data is fraught with privacy 
concerns. Nonetheless, based on my experience at NCES and following the 
work done by other Federal agencies, especially the Census Bureau, I 
believe that there are sufficiently strong statistical procedures that 
can be employed to protect the data. With such protections in place, I 
believe the Congress should seek ways to allow the U.S. Department of 
Education to collaborate with other Federal agencies to match data 
about students education with IRS earnings data.
    I believe that since the Federal Government has a compelling 
interest in the outcomes of students receiving title IV aid, a 
reasonable place to start would be to match FSA data with tax data. 
However, to be useful the FSA data must be expanded to capture program 
of study. I also believe that the Federal Government should make clear 
a policy to allow State governments to match their much more complete 
student data with Federal tax data.
                               next steps
    Let us assume that the Nation makes a commitment to expand the 
collection of consumer data. How we proceed will matter. My work with 
Andrew Kelly, ``Filling in the Blanks,'' \3\ shows that choices across 
postsecondary institutions can be improved by good data presented 
simply. To ensure widespread use, to paraphrase the perennial 
description of real estate, it is essential to keep in mind three 
fundamentals about data usage: audience, audience, audience.
---------------------------------------------------------------------------
    \3\ Available at https://www.aei.org/publication/filling-in-the-
blanks/.
---------------------------------------------------------------------------
    We can distinguish at least three audiences for these data--and 
while the underlying data may be the same, the way in which the data 
are presented and which strands are highlighted will vary. Trying to 
satisfy all three audiences with the same data application may not be 
possible.
students, their families and the guidance counselors who help students 
                        find and choose schools
    The data for this audience need to be tailored to help students 
find schools and programs that they are likely to complete and that 
will give them a strong chance to enter the middle class. They need to 
be able to understand that a bachelor's degree is not the only path 
into the labor market. Given the well documented low levels of 
financial literacy among young adults, they may need targeted help to 
understand the consequences of their decisions and how their choices 
translate into outcomes they can easily grasp: such as what kind of car 
will I be able to afford or will I be able to live somewhere else but 
my mother's basement.
    We also have to recognize that guidance counselors can act as 
intermediaries helping students navigate the data to choose programs 
that will lead to more success following completion. Guidance 
counselors are notoriously overworked and most are not trained to guide 
student college choices. We need to provide them with better mechanisms 
for accessing information to help better guide their students.
    However, I am not at all sanguine that the Federal Government can 
produce applications that will be appealing to this audience.
                           state policymakers
    States invest large amounts of money in their postsecondary systems 
because these systems are viewed as human capital investment designed 
to help the State remain economically competitive. At the current time, 
States also ``own'' both student data and the State Unemployment 
Insurance (UI) wage data. This allows them to build far more powerful 
applications documenting labor market outcomes and credentials with 
high market value than the Federal Government can.
    Furthermore, most States are now building performance-based 
budgeting systems to reward colleges and universities that are 
exceeding benchmarks. Most of these systems are dominated by measures 
of the flow of students through the institutions (e.g., retention or 
graduation rates of different types of students), but many States have 
already included or are considering the inclusion of wage data into 
these budget systems.
    One motivation behind this movement is clear: the returns to the 
taxpayer should play a role in State budget allocations. While most of 
my previous discussion focused on student returns, taxpayers and their 
representatives also have the right to know about the returns on their 
investment in their State's colleges and universities.
    For taxpayer returns to be better measured, we not only need to 
measure better student earnings, we also need better measures of the 
amount of government subsidies flowing into and through campuses: This 
ultimately will require better information about how government money 
is actually spent when it gets to campuses. This may require either 
better State finance data tracking systems and likely a systematic 
overhaul of IPEDS finance data.
                          federal policymakers
    There is a compelling Federal interest measuring how well the 
Nation's large investment in title IV student aid pays off to students 
and taxpayers. Despite legitimate privacy concerns, linking FSA data 
with IRS tax data is essential. FSA data would need to be modified to 
include information about the programs in which title IV recipients are 
enrolled. These merged data would cover around 60 percent of all 
students in the Nation.
    In addition to or in lieu of Federal action, the Congress should 
make it possible for States to contract with the IRS or the Social 
Security Administration to merge State held student data with Federal 
income tax data. Again, these data would be returned to the States 
aggregated at the program level and subject to statistical methods, 
such as perturbation, to ensure privacy.
                           concluding remarks
    Clearly, the Federal Government is in the position to create a 
consumer-oriented database that can answer all five questions 
identified earlier. While States can and do develop data systems that 
answer these questions, the Federal Government can create a post-
completion earnings database that no State or private entity can come 
close to matching in terms of coverage and quality. As noted, I believe 
the Congress should create such a database starting with FSA data and 
Congress should also endorse the ability of States to match their own 
student data with IRS tax data. The Federal Government has a role 
working with States to improve the measurement of time to degree- and 
program-level graduation rates. This should be approached as a 
partnership in which the Federal Government helps States achieve their 
policy goals and not as Federal mandates.
    While the Federal Government can be the most powerful actor in the 
Nation in creating these databases, it is far from the best actor when 
it comes to disseminating the data in a usable form.
    The long and contentious history of gainful employment and the 
shorter but equally fraught history of the current attempts to create a 
college ratings system show the dangers of Federal overreach.
    I work with Money Magazine on Money's Guide to Best Colleges. We 
use a variety of data to help identify schools where students get the 
best outcomes for their investment of time and money. We have no 
regulatory authority and if people don't like our rankings system, they 
simply won't buy the magazine. A Federal Government system, especially 
one tied to, say, title IV funding, carries totally different 
consequences. I believe the Federal Government should help create high 
quality databases and then make the data widely available. Many efforts 
will follow, as States, companies--such as Money Magazine and College 
Measures--and not-for-profit organizations experiment with different 
user interfaces, emphasizing different metrics. This competition will 
likely yield the best solutions to the need for better, more widely 
used consumer information about the large and growing number of 
postsecondary options available across the land.
    Thank you for your time and for your consideration of these ideas.

    The Chairman. Thank you, Dr. Schneider.
    Ms. Santiago.

 STATEMENT OF DEBORAH A. SANTIAGO, CHIEF OPERATING OFFICER AND 
VICE PRESIDENT FOR POLICY, EXCELENCIA IN EDUCATION, WASHINGTON, 
                               DC

    Ms. Santiago. I want to also thank you all for allowing me 
to come and speak with you giving the perspective we have at 
Excelencia in Education.
    I am Deborah Santiago and have multiple hats at a small 
nonprofit organization. Our mission is to accelerate Latino 
student success in higher education. For us, that is not the 
exclusion of any other students, but too often Latinos are the 
footnote or the aside, and the reality is that increasingly 
that is the majority of students. For us, it is an opportunity 
to look at these institutions. They kind of represent the post-
traditional students that we really need to be focusing on at 
the Federal level and institution level. For us post-
traditional as opposed to nontraditional--I think 
nontraditional presumes we are going to go back to a way of 
being that we are not meeting a norm of tradition. I think the 
reality is we are beyond that. We are never going to get to 
that point where the majority of our students are that 
traditional student and profile. For us, that is an important 
distinction because the information that flows to those 
students is predicated on understanding who they are, and for 
us, that is an important part of how we approach data.
    We are also very data-focused. For us, the focus of the 
data is really to inform and compel action because we do find, 
despite the volume of data, there is still profound ignorance 
about who there students are, where their needs are, and where 
they intend to go--and the ability to use that is summarily 
important.
    For us, the use of good, accurate information is critical 
for the students and the choices they make, especially low-
income, first-generation students. Too often we find this is 
complicated for students and families because the data 
themselves and the construct that informs our choices are 
constantly in flux. When you have institutional selectivity, 
costs, financial aid, and workforce opportunities constantly 
changing, it is hard to imagine a student or family can find 
ways to mitigate the 4,000-plus institutions and opportunities 
they have in a significant way. I think there is a role for the 
Federal Government to be able to assist us in narrowing down 
those choices and get to what could be more of a best fit, 
presuming that we will never know perfect information, but 
having a good sense.
    Our experience is that these post-traditional students tend 
to be very pragmatic, and the information they choose is maybe 
not what we would always want or think they should know, but 
they are dealing in an environment that is incredibly complex. 
And we always want to recognize that.
    In dealing with data, I will say because it is complex, I 
think you need to be very multilingual. I speak Spanish, 
English, and data, and I think that is important when we deal 
with the kinds of populations we are trying to serve. They rely 
on intermediaries that can find a way, that can understand the 
complexities of tables and charts and rates, which I think very 
few of the general public understand what that means, and our 
ability to serve as an intermediary to help them is summarily 
important especially when we are looking at the multiple 
audiences.
    From my perspective, there are three audience that take 
advantage of or that can take advantage of the Federal 
information that is collected, and these are all consumers in 
my mind. One is certainly students. As I said, I think they 
have very pragmatic perspectives that I think we need to be 
respectful of. I think cost, access, and work opportunities are 
important. I think also the opportunity to look at things side 
by side. The College Navigator has a plethora of information. 
Our experience is that students maybe take a look at three or 
four points. I have yet to find a student who makes any choice, 
though, based on graduation rate. They tend to think that they 
can be the exception rather than the norm. We have to just 
acknowledge that that is the case. For the students that we 
deal with, the low-income, first-generation, they want to be 
the exception to the norm in their families because no one in 
the family has gone to college, and the data they consume are 
predicated on that perspective.
    Best fit is informed by what they think is possible, not 
just what data say because they are already outliers in their 
family. They are people of privilege because they are going to 
be going to college. That perspective is I think important as 
we think about this.
    Students are actually critical, and to the extent the 
Federal Government can speak to them, I think it is predicated 
on the value of intermediaries. I think Mark already mentioned 
this. For us, it is important. We look at groups like Gear Up, 
Trio, NCAN, NACAC. I know all the alphabet soup that we deal 
with here whether it is counselors or other organizations. They 
are critical in the translation of good information to 
students, and students rely on these intermediaries because 
they have direct contact and trust in the community in ways 
that, unfortunately, it is too hard at the Federal level to be 
able to get. Relying on those kinds of organizations, as my 
own, are really important to be able to get good information in 
the hands of students and families. That is what matters.
    I think the last group that has a critical role is 
research. I know that we are talking about consumer 
information, but if we look at the intermediary role, the 
ability to take a look at institutional effort--we do a lot of 
work looking at Hispanics over the institutions, what are they, 
who is enrolling, what do we see in terms of completion, what 
more can be done. It is important that intermediaries are able 
to take a look at that and inform policy and practice.
    I would also say that as we are looking to these issues--
issues like under-matching where the assumption is that there 
is perfect information, students are just making bad choices--I 
think contrasts with this idea of a best fit and understanding 
that post-traditional students use the best information they 
have available and how can we get that in to them so that we 
are looking at issues that are critical to the student being 
the center rather than assuming they are making bad choices 
with the information they have. It is critically important to 
understanding what is a very complex choice situation between 
students and families.
    Thank you.
    [The prepared statement of Ms. Santiago follows:]
               Prepared Statement of Deborah A. Santiago
                                summary
    Having accurate and useful information is critical to student and 
family choices for college access and success. However, three current 
realities are challenging the increased efforts at the Federal level to 
provide useful information to a diverse polis of potential college-
goers: (1) limited awareness of how to reach the growing representation 
of Latinos, adults, veterans, and other ``post-traditional'' students 
ready to access college; (2) the resistance to change of institutional 
structures designed for ``traditional'' students; and, (3) the constant 
fluctuations of factors informing choice, such as institutional 
selectivity, costs, financial aid, and workforce opportunities.
    Key findings and recommendations:

    1. Low-income and potentially first-generation college-goers make 
pragmatic college choices. Whereas conventional wisdom asserts students 
make college choices based on financial aid, institutional prestige, 
and academic programs offered, more contemporary research has found 
post-traditional students are increasingly making college choices based 
on college costs, institutional accessibility, and location. 
Understanding these distinctions can improve the crosswalk between what 
students want to know and should know to find the ``best fit'' in their 
college choices.
    2. Transparency of targeted and appropriate information on 
postsecondary education requires strategic outreach and engagement for 
maximum effectiveness. Detailed information has limited benefit if it 
does not reach those with the most need for it through intentional 
outreach and engagement of diverse communities. Implementing government 
outreach strategies that partner with organizations who are already 
aware and able to serve the information needs of post-traditional 
students can better support the college choices students make to find 
their ``best fit'' college option.
    3. An abundance of information about college options does not 
necessarily improve the chances of post-traditional students finding 
their ``best fit'' college. In this day and age, sophisticated search 
engines have been developed to simultaneously inform and guide consumer 
choices based on basic preferences (i.e., Google, Netflix, and Amazon). 
Help in narrowing options can facilitate the navigation of too much 
information so that potential students with limited college knowledge 
can still find a ``best fit'' college.
    4. Providing useful information about college options early and 
often in an educational pathway creates awareness and knowledge among 
students and their families that can help them prepare for their access 
and success. Maternity wards, K-12 schools, and community-based 
organizations are viable venues along the educational continuum that 
can provide information to prepare potential students with a roadmap to 
enroll in college so that their expectations and costs for persistence 
and completion are clear.
    5. Identifying post-traditional students is needed to design 
tailored information and outreach. Disaggregating data by the very 
characteristics that define post-traditional students can improve the 
targeted and intentional strategies to reach these students and can 
further inform the impact of those strategies for effectiveness.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, and HELP Committee 
members, thank you for the invitation to participate in this hearing to 
discuss information for students and parents and the potential to 
better inform college choice. Everyone in the United States deserves a 
shot at the American Dream. The American Dream is the Nation's idea 
where everyone has the opportunity for success and upward social 
mobility through hard work in a society with few barriers. Today, a 
college education is increasingly required for success and upward 
social mobility, but educational attainment has not been reached 
equally by all and barriers continue to exist.
    I am Deborah Santiago, chief operating officer and vice president 
for policy at Excelencia in Education (Excelencia). Excelencia in 
Education accelerates Latino student success in higher education by 
promoting Latino student achievement, conducting analysis to inform 
educational policies, and advancing institutional practices while 
collaborating with those committed and ready to meet our Nation's goal 
of improving educational success. Launched in 2004 in Washington, DC, 
Excelencia is building a network of results-oriented educators and 
policymakers to address the U.S. economy's need for a highly educated 
workforce and engaged civic leadership.
    While some believe a focus on race and ethnicity divides us as a 
society, Excelencia in Education believes acknowledging racial and 
ethnic trends describes our society, and therefore, helps us understand 
it. This does not exclude other groups in society. Our purpose is to 
consider seemingly inflexible issues in postsecondary education with a 
more contemporary lens. This lens provides a fresh perspective to 
consider redesigning consumer information and data using this young and 
growing population as the baseline, rather than the footnote, from 
which to develop more effective policies, engage diverse stakeholders, 
and enhance active tactical responses necessary to better serve a 
majority of students, not just Latinos. Excelencia starts our 
discussions about postsecondary education with a consideration of the 
Latino population, because, despite our long-standing existence and 
growth in the United States, too often Latinos are not considered at 
all, or are an afterthought in education issues. We cannot reach our 
national goals of an educated citizenry and workforce without a 
tactical plan that includes Latinos.
    Now you have a sense of the lens from which Excelencia has formed 
our perspective on information for students and families and their 
college choices. One final point that informs my lens: I am a person of 
privilege who has benefited from the American Dream. I am privileged 
because I have a college education. Less than one in two adults in the 
Nation, and less than one in four Latino adults in the Nation, have 
earned an associate degree or higher. I was raised to believe with 
privilege comes responsibility to give back to others who do not have 
the same privileges. While I had emotional and financial support from 
my parents, it was my responsibility to figure out how to apply, enroll 
and pay for college. I was lucky. I went to college in a traditional 
pathway (straight from high school to college, lived on campus, and 
finished in 4 years). This traditional pathway is no longer the 
prevalent pathway for the majority of students today. These experiences 
and knowledge inform the work to help our current and future students 
also become people of privilege.
                 information for students and families
    Having accurate and useful information is critical to student and 
family choices for college access and success. However, three current 
realities are challenging the increased efforts at the Federal level to 
provide useful information to a diverse polis of potential college-
goers: (1) limited awareness of how to reach the growing representation 
of Latinos and other ``post-traditional'' students ready to access 
college; (2) the resistance to change of institutional structures 
designed for ``traditional'' students; and, (3) the constant 
fluctuations of factors informing choice, such as institutional 
selectivity, costs, financial aid, and workforce opportunities.
             limited awareness of post-traditional students
    Sharing broad profiles of students to guide public policy obviously 
muddles the individual profile or experience, but is a necessary tool 
to work at scale. The traditional student profile currently drives so 
much of the information shared about college today. However, this 
profile represents less than 20 percent of students enrolled in college 
today, and their representation is shrinking. In fact, the majority of 
college-going, and potentially college-going students are ``post-
traditional.'' Whereas the term ``nontraditional'' is often used to 
describe students that do not fit into a traditional profile, the term 
``post-traditional'' better describes the growing majority of students 
of today. We are not returning to a student majority that fits the 
traditional profile entirely. Post-traditional students include part-
time, returning, veteran, commuting, adult, Latino and other 
traditionally underrepresented students. They are the majority of 
students today. Consider the contrast between the traditional and post-
traditional student profiles.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The post-traditional student profile offers a contemporary lens to 
more accurately see America's student population from which 
policymakers can develop more effective policies, engage diverse 
stakeholders, and enhance tactical responses to better inform and serve 
a growing majority of students in postsecondary education today and in 
the future.
      information needs of post-traditional students and families
    Considering the information needs of this diverse set of post-
traditional students complicates an already challenging goal to ensure 
public access to purposeful and consumer friendly information that 
enables students and families to select colleges or universities that 
best fits their needs. A growing body of research as well as work at 
Excelencia with communities and institutional leaders across the Nation 
has led us to summarize the following about the informational needs of 
many post-traditional students and families.
Post-traditional college-goers make pragmatic college choices
    About half of all Latino undergraduates were the first in their 
family to enroll in postsecondary education. This is not surprising, 
since only 7 percent of Latino adults had an associate degree, and only 
14 percent had a bachelor degree or higher in 2012. While Latinos are 
more likely to be the first in their family to enroll in college than 
other racial/ethnic groups, this is not unique to Latinos. Given that 
only 41 percent of all adults in the United States have an associate 
degree or higher, the children from the majority of adults in the 
country are potential first-generation college-goers. This group 
characteristic highlights a critical opportunity in public policy to 
design and deliver information about college options that increases the 
access and success of first-generation college-goers.
    Conventional wisdom is that students prioritize financial aid, 
institutional prestige, and academic programs as critical factors 
influencing their college choice. However, many Latino and other post-
traditional students prioritized college costs, proximity to where they 
lived, and an accessible campus as decisive factors in their college 
choice. In fact, increasingly post-traditional students are choosing 
their institution based on the ``sticker price'' of tuition and related 
costs, without significantly factoring in financial aid. They also 
appear to be increasingly adapting to rising college costs by choosing 
to enroll at less expensive institutions, enroll part-time, 
occasionally stop out and return, and work while enrolled.
    Recent national discussions that point to high-achieving, low-
income and first-generation students undermatching in their college 
choices miss a broader understanding of the factors that inform choice 
and applies a conventional understanding of a ``best fit'' college for 
a student. Speaking with students and asking why they chose their 
institution may yield a better understanding of the students' choices. 
In focus groups with low-income and first-generation college-goers, 
students repeatedly told us they believed they could get a quality 
education anywhere, if they were motivated, so why would they go 
elsewhere or pay more? Many of these post-traditional students are 
making their own ``tradeoffs'' in deciding what a ``best fit'' college 
choice is for them that accommodates their economic needs, family 
responsibility and goals for completion with institutional flexibility, 
cost, and convenience. This is a pragmatic and self-determining 
perspective, and should be respected. However, those of us who study 
postsecondary education know the diversity of college options and 
opportunities available vary between institutions. If all colleges are 
not ``equal,'' what additional information should post-traditional 
students factor in to their choices? And how do they integrate or 
compare this additional information with what they have already 
prioritized as informing their choice?
    Understanding the pragmatism that guides the college choices of 
many post-traditional students and knowing the prevailing conventional 
wisdom of what students and families need to know to make their college 
choices can improve the crosswalk between what students want to know 
and should know to find the ``best fit'' in their college choices.
Targeted and appropriate information can improve college choices
    College choices are both influenced and constrained by educational 
expectations, knowledge of options, financial resources available, and 
the quality of academic preparation in high school. Studies have shown 
that Latinos are more likely than other racial/ethnic groups to value 
higher education, but have lower educational aspirations than other 
groups. It is hard to refute that strategic outreach and engagement 
could improve the actualization of college aspirations. Those who know 
the system, know there are resources and support structures available, 
even if in disparate locations and systems. Often, post-traditional 
students and families have limited knowledge about their college 
options and do not know how to navigate the college-going process 
without assertive institutional guidance. Today's information assumes a 
depth of knowledge about the system of postsecondary educational 
options and costs that is out of synch with the data. Too often, 
policymakers assume the ``kitchen table'' conversation of postsecondary 
education options routinely takes place. However, many post-traditional 
students do not have perfect information to inform their college 
choices.
    There have been recent efforts by the Federal Government to 
increase the amount and transparency of information to select and pay 
for college. This includes the net price calculator and the ``shopping 
sheet.'' The information found on these forms is useful, but one must 
consider how those tools are disseminated, and who uses them to make 
their college choices. Without intentional outreach and engagement of 
diverse communities that reaches those with the most need for 
information, these tools will not meet their intended purpose. There is 
broad awareness that this conventional information is easy to find, 
much less compare between institutions.
    Deployment of what is known about effective outreach and culturally 
competent strategies should be the norm rather than the exception when 
providing access for college options. While many students resort to the 
internet to find information about college options, the volume, 
quality, and ease of location for this information are often disjointed 
and complex. Other students rely on the information and experiences of 
other students and community members, and this can also lead to 
gathering dated, incorrect, or misleading information as often as 
accurate and useful information. Often post-traditional students have 
to navigate the complex and extensive options of college choices 
without their parents, and while counselors of trust are invaluable for 
post-traditional students, without strategic outreach and engagement, 
post-traditional students may not be aware of this resource option or 
these counselors may not be available to them. The figure below 
provides an example of simple information about college-going, 
attendance intensity, and associated costs to inform students in a 
user-friendly way of their options developed by the University of 
Texas-Brownsville and Texas Southmost College. It mimics the basic 
overall costs and time to a degree that can inform an individual 
education plan. The simple information also makes clear the tradeoffs 
for students in a side-by-side manner so that they can make a more 
informed decision that fits their needs but also makes them aware of 
the cost and time to a degree for each choice.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Source: The University of Texas, Brownsville (2012)\1\
---------------------------------------------------------------------------
    \1\ The University of Texas, Brownsville posted in 2012 and 
retrieved January 2013, at http://www.utb.edu/sa/studentsuccess/gc/
Pages/TheBenefitsofGraduating.aspx.
---------------------------------------------------------------------------
Too much information can limit college choices
    An abundance of information about college options does not 
necessarily improve the chances of post-traditional students finding 
their ``best fit'' college. With more than 4,000 degree-granting 
institutions in the Nation, each with their own enrollment criteria, 
cost, course offerings, support services, mascots, and colors, 
comparing and contrasting all of these institutions is beyond the scope 
of most students and families (and even most experienced college 
counselors) who are concurrently juggling many other priorities.
    In this day and age, sophisticated search engines have been 
developed to simultaneously inform and guide consumer choices based on 
initial inputs and basic preferences. Take for example, Google, with 
its complex algorithms that rank material by what is most likely linked 
to an inquiry, or Amazon and Netflix and their sophisticated 
calculation based on previous views or recommendations. Help in 
narrowing options can facilitate the navigation of too much information 
so that potential students with limited time to become college experts 
can glean sufficient knowledge based on their interests that they can 
still find a ``best fit'' college.
    Is there a Federal role here in limiting college choice by helping 
to guide a student to narrow choices among viable and appropriate 
options? As the main source of data on all colleges in the Nation, and 
with this information provided by colleges, incentivizing the creation 
of a public structure that does not rank or rate colleges, but that 
allows a student to provide inputs to interface with a more robust 
dataset (behind the curtain) by an independent entity may be of great 
value to post-traditional students.
Providing information early and often can influence college choices
    Providing useful information about college options early and often 
in an educational pathway creates awareness and knowledge among 
students and their families that can help them prepare for their access 
and success. For example, in work Excelencia completed with partners in 
California, the idea of offering information about paying and preparing 
for college at maternity wards for every new born developed. The 
California State University system offered a poster with a college 
roadmap from 3d grade to the college gates with academic criteria to 
meet at each grade. The information was to be provided in the current 
packet of information provided to all new mothers about important 
parenting issues, such as their instructions to complete social 
security cards for their newborn and vaccination needs. Since one out 
of every two births in California was to a Latina, we knew many Latinos 
would get information they could use to become better informed and 
build their educational pathway to college early. In that same vein, K-
12 schools are building college-going cultures on their campuses, and 
community-based organizations are engaged in education strategies to 
provide information to prepare potential students with a roadmap to 
enroll in college so that their expectations and costs for persistence 
and completion are clear.
Identifying post-traditional students is needed to design tailored 
        information and outreach.
    While the Federal Government does collect large amounts of data, 
this data is not often used in a manner that informs the targeted 
awareness and outreach that can facilitate information sharing on 
college options and choices. Disaggregating data by the very 
characteristics that define post-traditional students can improve the 
targeted and intentional strategies by Federal, State, institutional, 
and community programs to reach these students. If paired with 
effective outreach, this information can further inform the impact of 
those strategies for effectiveness. One constructive way to offer this 
data support to inform policy and practice is to link existing data 
through efforts such as a student unit record system that follows the 
progress of students and allows for timely interventions by 
institutions or other privileged providers. This does not imply a 
relaxation of student privacy, but rather an alignment of disparate 
data systems in a manner that can facilitate targeting of appropriate 
research and targeting of better information and options to post-
traditional students.
                      summary and recommendations
    This short testimony offers some insights into the post-traditional 
students and families we have been privileged to work with over many 
years. While the examples and ideas do not delve into the greater 
complexity of information, I hope it helps to frame a more robust 
discussion about who these students are and the choices they make to 
get access and attain the American Dream of a college education and 
social mobility.
    Supporting access to postsecondary education remains essential for 
Federal policy, and the Federal role in helping to incentivize the 
development and dissemination of good information that can inform the 
college choices of current and future students is real. However, for 
the post-traditional student, access is not sufficient to guarantee 
completion. Too often we think getting students in to college is the 
biggest challenge. There is a Spanish saying reminiscent of this 
``access-only'' approach to postsecondary education: ``Vayan con 
Dios,'' meaning, ``Go with God'' or more loosely explained, it may take 
divine intervention to facilitate your journey. Information that can 
guide college choice as well as the resources and strategies to persist 
to completion go hand in hand. The following is a summary of the 
perspectives and recommendations raised in this testimony.
    Low-income and potentially first-generation college-goers make 
pragmatic college choices. Whereas conventional wisdom asserts students 
to make college choices based on financial aid, institutional prestige, 
and academic programs offered, more contemporary research has found 
post-traditional students are increasingly making college choices based 
on college costs, institutional accessibility, and location. 
Understanding these distinctions can improve the crosswalk between what 
students want to know and should know to find the ``best fit'' in their 
college choices.
    Transparency of targeted and appropriate information on 
postsecondary education requires strategic outreach and engagement for 
maximum effectiveness. Detailed information has limited benefit if it 
does not reach those with the most need for it through intentional 
outreach and engagement of diverse communities. Implementing government 
outreach strategies that partner with organizations who are already 
aware and able to serve the information needs of post-traditional 
students can better support the college choices students make to find 
their ``best fit'' college option.
    An abundance of information about college options does not 
necessarily improve the chances of post-traditional students finding 
their ``best fit'' college. In this day and age, sophisticated search 
engines have been developed to simultaneously inform and guide consumer 
choices based on basic preferences (i.e., Google, Netflix, and Amazon). 
Help in narrowing options can facilitate the navigation of too much 
information so that potential students with limited college knowledge 
can still find a ``best fit'' college.
    Providing useful information about college options early and often 
in an educational pathway creates awareness and knowledge among 
students and their families that can help them prepare for their access 
and success. Maternity wards, K-12 schools, and community-based 
organizations are viable venues along the educational continuum that 
can provide information to prepare potential students with a roadmap to 
enroll in college so that their expectations and costs for persistence 
and completion are clear.
    Identifying post-traditional students is needed to design tailored 
information and outreach. Disaggregating data by the very 
characteristics that define post-traditional students can improve the 
targeted and intentional strategies to reach these students and can 
further inform the impact of those strategies for effectiveness.
                            closing remarks
    Thank you for the opportunity to share my perspectives on the 
information students and families need to help their college choices 
and identifying their ``best fit'' institutions. Excelencia in 
Education's strategies to accelerate Latino student success in 
postsecondary education by applying knowledge to policy and practice 
are consistent with the efforts you have demonstrated by holding these 
hearings with diverse representation but a common cause: to increase 
our Nation's need for a highly educated workforce and engaged civic 
leadership.
    As you make progress in reauthorization of the Higher Education 
Act, Excelencia in Education stands ready to serve as a resource on the 
experiences of Latinos and other post-traditional students; the 
identification of what programs and practices work to improve their 
access, retention, and completion; and, the opportunity to engage with 
educators and leaders throughout the Nation that can inform your 
important efforts to serve all of us well and ensure our continued 
prosperity.

    The Chairman. Thank you, Ms. Santiago.
    Ms. Lightfoot.

  STATEMENT OF STACY LIGHTFOOT, VICE PRESIDENT OF COLLEGE AND 
   CAREER SUCCESS INITIATIVES, PUBLIC EDUCATION FOUNDATION, 
                        CHATTANOOGA, TN

    Ms. Lightfoot. Chairman Alexander, Ranking Member Murray, 
and members of the HELP Committee, thank you for the 
opportunity to be here to testify about consumer information in 
the college choice process.
    As a low-income African American female, statistics 
suggested that I would continue to live in poverty, work a low-
wage job, and not obtain a college degree. My mother was a 
single parent. I came from a single-parent home, and my mother 
made less than $12,000 a year when I went off to college. 
However, she made sure that I was surrounded by trusted adults 
and role models to supply me with great information. As a 
result, I knew the importance of an education.
    I was only familiar with my local options, a community 
college or a State school. My college counselor then--her name 
was Susan Chipley, now Susan Street--led me to research a jewel 
of a campus in the cornfields of Greencastle, IN that led me to 
DePauw University. She knew my family situation. She steered me 
in the right direction to a perfect college that met my 
personality, that matched my personality, my learning style, a 
college that met my family's financial need, and offered study-
abroad programs and various majors from which I could choose, a 
college that knew what to do with a student like me, a poor 
black girl from the South. It was the perfect fit.
    The information that Ms. Chipley stored in her head about 
colleges across the country was mind-blowing. She was 
associated with regional and national networks that enabled her 
to follow admissions trends, understand relevant data, and 
build a professional network that allowed her and gave her the 
power to be the best advocate for students like me. She was my 
translator.
    Because of the knowledge of one advocate, the trajectory of 
my life has changed, and that is the reason that I do what I do 
now, working with public school counselors to provide them with 
the resources and the information and the space to share best 
practices, to collect information and to understand the 
information to collect to help students in the college choice 
process. Helping students find the right postsecondary fit for 
all students is why I do what I do.
    As stated in a white paper on college under-matching 
produced by the Tennessee College Access and Success Network, a 
good match is not defined purely by selectivity or prestige but 
by a complete series of factors that signify the institution 
will be able to nurture the student's potential through a 
college degree.
    Students select colleges based on, obviously, location, 
major size, admissions requirements, and costs, extracurricular 
opportunities, those basic things that we know about. Students 
do not know to ask questions or know the implications of these 
factors: college graduation rates, retention rates, percentage 
of financial need met, average financial aid package, average 
of indebtedness at graduation, occupational outlook, and job 
placement rates. In the words of Kim Cook, executive director 
of the National College Access Network,

          ``Today's students are in need of the right 
        information to help them make decisions to attend a 
        school that best matches their academic qualifications 
        and provides the best environment to support the 
        ultimate completion.''

    An additional strategy under the Higher Education Act could 
include requiring colleges to publish accurate data on long-
term student outcomes on their websites. Much like the policy 
for postsecondary institutions participating in the title IV 
Federal student aid programs where colleges post the net price 
calculator to its consumers, it has been helpful in helping 
students understand a clear picture of their financial 
responsibility. An additional policy under the Higher Education 
Act could include colleges to accurately and easily post this 
information on their websites on job placement rates, financial 
aid outcomes, including default loan rates, that is readily 
available and accessible on each institution's website.
    I applaud Senators Lamar Alexander and Michael Bennet for 
working together on revising and simplifying the format of the 
FAFSA. A simplified version of the FAFSA could reduce the 
frustration and encourage more families to apply for financial 
aid. That would be life-changing for a lot of students. 
Including prior prior-year income and asset data when 
submitting the FAFSA may address issues of accessibility and 
affordability. Providing clear data on Pell Grant recipient 
graduation rates will help college admissions professionals 
like myself and the admission professionals with whom I work 
guide their low-income, under-represented students to schools 
that will ensure their completion.
    In conclusion, of course students can Google their way to 
making a college decision, but that choice may not be the best 
fit. Vital elements are missing about college transparency 
around publicizing pertinent data, and these data are central 
to helping students select the best fit institution where they 
are most likely to succeed and graduate.
    Thank you.
    [The prepared statement of Ms. Lightfoot follows:]
                 Prepared Statement of Stacy Lightfoot
                                summary
    Chairman Alexander, Ranking Member Murray, and members of the HELP 
committee, thank you for the invitation to give testimony about 
consumer information that students and families need to make informed 
choices about college options; and also, to make recommendations on 
behalf of college access professionals from around the country for HEA 
reauthorization. I am a proud resident of Tennessee and have been for 
most of my life except for the years I was in college at DePauw 
University (Greencastle, IN) for my undergraduate degree; and, at the 
University of Roehampton (London, England) for my master's degree.
                                about me
    As a low-income, African American female, statistics suggested that 
I would continue to live in poverty, work a low-wage job and not obtain 
a college degree. My mother was a single parent who made less than 
$12,000 a year. However, she made sure that throughout my life I was 
surrounded by trusted adults and positive role models.
    As a result, I knew the importance of education. However, I was 
only familiar with my local options--a community college and a State 
school. My college counselor, Susan Chipley, led me to research this 
jewel of a campus in the cornfields of Greencastle, IN. She knew my 
family situation and steered me in the right direction--to a perfect 
college that matched my personality and learning style, a college that 
met my family's financial need, offered study abroad programs and had 
various majors from which I could choose. A college that knew what to 
do with a student like me--poor, black girl from the south. It was the 
perfect fit.
    The information Ms. Chipley stored in her head about colleges 
across the country was mind-blowing. She was associated with regional 
and national networks that enabled her to follow admissions trends, 
understand relevant data, and build a professional network that would 
give her power to be the best advocate for her students. Ms. Chipley 
was my ``translator''.
    Because of one knowledgeable advocate, the trajectory of my life 
changed for the better. After graduating with my master's degree, I 
entered the world of college access and success to impact the lives of 
students--to become a ``Ms. Chipley'' to other students. As the vice 
president of College & Career Success Initiatives at the Public 
Education Foundation (PEF), I am passionate about training college 
access professionals and informing the students and parents about the 
myriad of postsecondary options available--and helping to find the 
right postsecondary ``fit'' for all students.
    As stated in a white paper on college student undermatching 
produced by the Tennessee College Access and Success Network,

          ``A good match is not defined purely by the selectively or 
        prestige of the institution, but by a complete series of 
        factors that signify the institution will be able to nurture 
        the student's potential through to degree completion.''
  what information should students know to make their college choice?
    Students select colleges based on location, major, size, type, 
admission requirements, costs, and extra-curricular opportunities to 
name a few. However, other factors may not be as seemingly important to 
students and their families in the selection process--mainly because 
they don't think about these aspects or their implications. However, 
savvy college access professionals encourage students to also think 
about the following as part of the college selection to determine 
``best fit'':

    <bullet> College graduation rates,
    <bullet> Retention rates,
    <bullet> Percent of financial need met,
    <bullet> Average financial aid package,
    <bullet> Average indebtedness at graduation,
    <bullet> Occupational outlook, and
    <bullet> Job placement rates.
                            recommendations
    In the words of Kim Cook, executive director, National College 
Access Network,

          ``Today's students are in need of the right information to 
        help them make decisions to attend a school that best matches 
        their academic qualifications and provides the best environment 
        to support ultimate completion.''

    An additional strategy under the Higher Education Act could include 
requiring colleges to publish accurate data on long-term student 
outcomes on each institution's website. A student's understanding of 
these data will go a long way to increasing their awareness on best fit 
college choice.
    I applaud Senators Lamar Alexander and Michael Bennet working 
together on a revised and simplified format for the FAFSA. A simplified 
version of the FAFSA form could reduce frustration and encourage more 
families to apply for financial aid. Also, using ``prior-prior year'' 
(PPY) income and asset data when submitting the FAFSA may address 
issues of access and affordability.
    Providing clear data on Pell grant recipient graduation rates will 
help college admissions professionals guide their low-income students 
to schools that will ensure their completion.
                               conclusion
    Sure, students can ``google'' their way to making a college 
decision, but that choice may not be the best fit. Vital elements are 
missing about college transparency around the publicizing of pertinent 
data. These data are central to helping students select the best fit 
institution where they are most likely to graduate.
                                 ______
                                 
    Chairman Alexander, Ranking Member Murray, and members of the HELP 
committee, thank you for the invitation to give testimony about 
consumer information that students and families need to make informed 
choices about college options; and also, to make recommendations on 
behalf of college access professionals from around the country for HEA 
reauthorization. I am a proud resident of Tennessee and have been for 
most of my life except for the years I was in college at DePauw 
University (Greencastle, IN) for my undergraduate degree; and, at the 
University of Roehampton (London, England) for my master's degree.
                                about me
    As a low-income, African American female, statistics suggested that 
I would continue to live in poverty, work a low-wage job and not obtain 
a college degree. My mother was a single parent who made less than 
$12,000 a year. However, she made sure that throughout my life I was 
surrounded by trusted adults and positive role models. These adults 
also made sure I was involved in extracurricular activities and 
participated in high impact programs that honed my leadership and 
academic skills and built my confidence.
    As a result, I knew the importance of education. However, I was 
only familiar with my local options--a community college and a State 
school. DePauw University isn't a college that many Tennesseans attend, 
especially low-income, African American public school students from 
Chattanooga. Once again, it was a trusted adult that changed my life. 
My college counselor, Susan Chipley, led me to research this jewel of a 
campus in the cornfields of Greencastle, IN. I didn't have money to 
attend college and knew I would have to depend on grants, scholarships 
and loans to make college a reality. Ms. Chipley knew my family 
situation and steered me in the right direction--to a perfect college 
that matched my personality and learning style, a college that met my 
family's financial need, offered study abroad programs and had various 
majors from which I could choose. It was the perfect fit.
    My decision to work in the world of college and career advising 
stems from the support I had as a high school student. If a poor, black 
girl from the east side of Chattanooga can overcome barriers to attend 
college on full financial aid package and study abroad in Italy, other 
students can do it, too. Neither I nor the people around me let my 
background determine my fate.
                           my ``translator''
    My college counselor was dynamic. Ms. Chipley had visited hundreds 
of college campuses, met countless admissions professionals, and knew 
hidden facts about colleges. She was regarded as ``the college 
admissions guru.'' The information she stored in her head about 
colleges across the country was mind-blowing. Little did I know then 
she was associated with regional and national networks that enabled her 
to follow admissions trends, understand relevant data, and build a 
professional network that would give her power to be the best advocate 
for her students. Ms. Chipley was my ``translator.'' My family and I 
didn't know much about the college application process, but she had 
knowledge that matched me up to the best value and college option. She 
was armed with the ability to interpret information she'd gathered 
through her college contacts and professional development experiences. 
Had it not been for my ``translator'' and college admission advocate, I 
would have gone to the local university and lived at home, which seemed 
like the best value and only option coming from a low-income 
background.
    Because of one knowledgeable advocate, the trajectory of my life 
changed for the better. She is the reason I now give back to my 
community. After graduating with my master's degree, I entered the 
world of college access and success to impact the lives of students--to 
become a ``Ms. Chipley'' to other students. As the vice president of 
College & Career Success Initiatives at the Public Education Foundation 
(PEF), I am passionate about training college access professionals and 
informing the students and parents about the myriad of postsecondary 
options available--and helping to find the right postsecondary ``fit'' 
for all students.
                    introduction to pef and my work
    At PEF, we believe there's nothing more important to our 
community's future than transforming our public schools. We're an 
independent, nonprofit, community-based organization that, for 25 
years, has provided training, research and resources to teachers, 
principals, college and career advisors and schools in Chattanooga, TN 
and surrounding areas. Our mission is to increase student achievement 
so all students succeed in learning and in life. In pursuit of that 
mission, PEF's college and career success initiatives focus on 
encouraging students to explore their options for postsecondary 
education, and provide them with support and access to tools to help 
them accomplish their goals. Through a variety of programs and 
supports, our work strives to continually increase the number of 
Chattanooga public school students who seek and matriculate to 
institutions of postsecondary training and learning.
    One of our signature initiatives is providing training for College 
and Career Advisors and school counselors who work part-time in all of 
our public high schools. We meet with a network of counselors and 
advisors and provide them a space to share best practices, inform them 
on the latest trends in college admissions and career development, and 
share data about their students--all to increase their knowledge so 
they can work more effectively with high school students and their 
families. Since PEF began supporting college advisors in 2005, the 
number of high school graduates going to college has increased by 30 
percent (from 1,324 in 2005 to over 1,714 in 2014). In 2005, our high 
school graduates matriculated to 121 colleges across the country; in 
2014, the number of colleges and universities increased to 200. The 
number of scholarship dollars has more than doubled with the class of 
2014 bringing in $20 million in scholarships.
    Intense support students receive from knowledgeable adults has been 
the key to our success. Our college access professionals work with 
students 1-on-1, in groups, host college and financial aid nights, plan 
college tours, and a host of other strategies that increase knowledge 
and postsecondary options for students.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   the students and their challenges
    As a former college advisor in the public school setting, I've 
worked with students from diverse socioeconomic and cultural 
backgrounds. Chattanooga's demographics capture urban, suburban, and 
rural public school students. I've worked with students whose families 
had the means to pay out-of-pocket for college; and, those whose 
families had financial hardships like me. And, there's everything in 
between.
Ashlyn's Story
    Ashlyn lived with her grandmother. She knew she wanted to go to 
college, but lacked the knowledge to choose the best fit. During May of 
her senior year, she planned to attend her State's flagship 
institution, a choice she wasn't excited about. She came to my office 
crying because the thought of going to a large institution overwhelmed 
her. I asked Ashlyn what she wanted from her college experience and she 
said, ``A small environment where I can get personalized attention.'' I 
called a colleague at a small liberal arts institution in a neighboring 
State and shared her story. The director of admission encouraged her to 
visit the next day. I paid for her Greyhound bus ticket and a 
representative from the college picked her up at the terminal. She 
toured campus and instantly fell in love. While visiting the financial 
aid office during this visit, they offered her over $30,000 in 
financial aid, which included the Pell grant. A few months later, 
Ashlyn started her freshman year at Oglethorpe University and completed 
a sociology degree in 5 years. It wasn't an easy transition, and she 
struggled all throughout college with grades and balancing her time. 
However, the support she received from various departments and the 
individualized attention available to her at a small college ensured 
her success. It was a perfect fit.
Robert's story
    Robert had his mind set on Columbia College in Chicago to major in 
art. On one hand, Columbia College was a good fit. It was an 
institution Robert could see himself at for 4 years. He enjoyed being 
away from home and experiencing the city life of Chicago. However, the 
cost of Columbia College was well beyond what his low-income family 
could afford. He wasn't offered a substantial financial aid package, 
but he wasn't familiar with other options that may be a good fit for 
his interest but more affordable. Robert felt that everything would 
fall into place once he enrolled. He saved some money, secured loans 
and used the Pell grant to pay for college. It still wasn't enough. 
After the first semester, Robert had to drop out of college because he 
accrued a $6,000 debt from the first semester. Therefore, he wasn't 
able to complete even his freshman year. Now, 26 years old, Robert 
can't even enroll at the community college because of his previous debt 
and will not receive a degree until that debt is paid off. I see him 
from time to time working odd jobs around the city. His still has 
aspirations to finish college.
    I share these stories to highlight the challenges of the students 
who need postsecondary guidance the most. As stated in a white paper on 
college student undermatching produced by the Tennessee College Access 
and Success Network:

          A good match is not defined purely by the selectivity or 
        prestige of the institution, but by a complete series of 
        factors that signify the institution will be able to nurture 
        the student's potential up to degree completion. This match is 
        of the utmost importance for low-income and first-generation 
        students, because they often lack the necessary support systems 
        to help them navigate not only the college-going process, but 
        also college persistence. Statistics prove that some colleges 
        successfully graduate more low-income and first-generation 
        students than others.

    Both Ashlyn's and Robert's stories reflect the different 
aspirations and challenges associated with college selection for some 
students. What information would have steered Robert to make a better 
financial decision in his college selection? Would getting a financial 
aid package before May of his senior year convince him to consider 
alternative college options with better aid packages? Or by getting 
Columbia's financial aid earlier, could he have had more time to save 
money to fill in the financial aid gap? Why would Ashlyn have settled 
for a college that wasn't the best fit? Her campus visit to Oglethorpe 
University sealed the deal. However, her family couldn't afford to send 
her on visits that happened outside of what her school planned.
  what information should students know to make their college choice?
    On the surface, the answer to this question is easy. Students 
select colleges based on location, major, size, type, admission 
requirements, costs, and extra-curricular opportunities to name a few. 
Students are asked to think about these criteria often. Other factors 
may not be as seemingly important to students and their families in the 
selection process--mainly because they don't think about these aspects 
or their implications. However, savvy college access professionals 
encourage students to also think about the following as part of the 
college selection to determine ``best fit'':

    <bullet> College graduation rates;
    <bullet> Retention rates;
    <bullet> Percent of financial need met;
    <bullet> Average financial aid package;
    <bullet> Average indebtedness at graduation;
    <bullet> Occupational outlook; and
    <bullet> Job placement rates.

    Had Robert had some of this information at his fingertips, would he 
have chosen to attend a college he could not afford or finish? I would 
like to think he would have made a better decision based on his 
financial situation. Unfortunately, this data is not easily accessible 
to counselors, students and families. College access professionals have 
to be familiar with sites such as College Navigator, College Score Card 
and other resources in order to use them effectively to guide students. 
Many public school counselors, especially those with high student 
caseloads, don't receive adequate training to disseminate relevant 
information to families. Students who don't have trusted experts in 
their corner will resort to ``googling'' their way to make their 
decision or taking unsound the advice from family or friends, like in 
Robert's case.
    One colleague asserts:

          Ultimately, students want to know if a college is right for 
        them, and that means knowing how a college or university will 
        best serve their needs and aspirations. Students want to know 
        if they will ``fit in'' to their college community. Will there 
        be venues and resources to help cultivate an engagement in 
        community life? In my experience, students learn best when they 
        have a sense of belonging and purpose in an educational 
        community. Some students also want to know about how to afford 
        their education over 4 years. All students should know how this 
        will happen. Students should know how much loan debt they might 
        need to take on AND how much loan debt is advisable given their 
        school, program, and career aspirations. Simply put, students 
        should know three essential things when they make their college 
        choice:

          <bullet>  Will I be well-served by this college community, 
        and will this be a place where I can engage and be productive?
          <bullet>  Will I have marketable skills and career options 
        coming out of this college? What resources will the college 
        invest in me to ensure that I have a relevant outcome (career 
        services, grad school counseling, internships, and research 
        opportunities)?
          <bullet>  Can I afford this college, and is it advisable to 
        take on a debt burden given my potential outcomes and career 
        aspirations?--Joseph Freeman, The Randolph School.
      approaches to increasing awareness and areas of improvement
    Chattanooga is uniquely positioned to provide quality training for 
college access professionals. We have seen a significant increase in 
the number of students going to college as well as an increase in their 
postsecondary options. PEF puts time into training counselors and 
advisors on how to engage, connect and coach students and their 
families through the postsecondary process. Through training, PEF 
provides current and relevant information from the field. We build 
capacity within our schools through this team of professionals who take 
information back to teachers, students and parents. Each of our schools 
is growing their college-going culture and celebrating the successes of 
students who choose to attend apprenticeship and certificate programs, 
2-year and 4-year colleges. PEF has dedicated staff collecting data on 
where our students are matriculating and where they are succeeding. 
That data is shared in our network and used to advance our work to 
increase student achievement.
    Just as our counselors and advisors use data to engage in 
conversations around what works and what doesn't, students need data, 
too--data that is accessible, transparent, and accurate. A student's 
understanding of an institution's graduation and retention rates, 
graduate job placement rates, and financial aid outcome, will go a long 
way to increasing their awareness on best fit college choice. However, 
students can only get this information from knowledgeable adults who 
share it with students and translate it for them and their families.
    Supports for students must start before they step onto a college 
campus. There must be supports in place for students at the high school 
level because success starts long before students enter college. 
Schools and other community-based organizations across the country are 
doing phenomenal work to ensure that public schools students, 
especially underrepresented students, are successful in the college 
application process. It would be ideal for the government to support 
schools and programs that offer college advising services; and, ensure 
that Elementary and Secondary School Counseling Programs (ESSCP) is 
protected and strengthened in the Elementary and Secondary Education 
Act (ESEA). There are model community-based programs, like PEF or 
Achieve MPLS, that could be grown and supported throughout the country. 
Although an ambitious dream, all public school students should have 
full-time experts who help them to navigate the college choice process, 
particularly high poverty schools. The work in Chattanooga has 
positively impacted students with the assistance of part-time college 
access professionals. I can only imagine how much greater the impact 
would be if full-time expert professionals were available to students 
around the country.
    how can laws change to meet the needs of students and families?
    The policy for postsecondary institutions participating in the 
title IV Federal student aid programs to provide estimated net price 
information (net price calculator) to its consumers has been utterly 
helpful for students to get a clear picture of their financial 
responsibility based on their individual situations. An additional 
policy under the Higher Education Act could include requiring colleges 
to publish accurate data on long-term student outcomes that comprise 
graduation and retention rates, job placement rates, financial aid 
outcomes (including default loan rates) that is readily available and 
accessible on each institution's website. Although this information can 
be gathered from various websites, students often aren't savvy enough 
to know to look for and interpret these data.
    Applying for financial aid poses a challenge for many families, 
especially underrepresented families. Even for the most skilled parent, 
the process is intimidating. I appreciate Senators Lamar Alexander and 
Michael Bennet working together on a revised and simplified format for 
the FAFSA. A simplified version of the FAFSA form could reduce 
frustration and encourage more families to apply for financial aid. 
Also, using ``prior-prior year'' (PPY) income and asset data when 
submitting the FAFSA may address issues of access and affordability. In 
Robert's case, understanding and interpreting his financial aid package 
earlier may have resulted in attending an institution that met more of 
his financial need. He now is in default on his loans. With guidance, 
Robert could have better anticipated the costs of a Columbia College 
education and made a different choice.
    Filing the FAFSA earlier would require intuitions to estimate State 
and Federal aid awards earlier, which poses a concern for colleges who 
feel that unless legislatures and Congress set funding levels for at 
least 1 year ahead, they would have to rely on estimates in order to 
package students.
    Reflecting on Ashlyn's story, her college provided her with robust 
supports while she was a student. Oglethorpe understood her 
disadvantaged background and never gave up on her. It was an 
institution that was committed not only to admitting low-income 
students, but their commitment manifested itself and extended into an 
``arms around approach'' to ensuring her college completion. The 
graduation rates of Pell grants students at institutions is a good 
gauge of an institute's promise to the success of all its students. 
Measuring the success of low-income college students is a key goal of a 
Federal college rating plan originally outlined by President Barack 
Obama. However, it's unclear if the government's college ratings will 
be able to include that measurement, given the current inadequacies of 
the data collected by the U.S. Department of Education.
    U.S. News and World Report conducted their own study and gathered 
income-based, 6-year graduation rate data. This information was 
collected in a statistical survey of colleges and universities in 
spring 2014. They used this data to show which schools they categorized 
as top performers, overperformers and underperformers when comparing 
the 6-year graduation rate for students from the fall 2007 entering 
class who received Pell Grants and the 6-year graduation rate of the 
entire class. Providing clear data like this will help college 
admissions professionals guide their low-income students to schools 
that will ensure their completion. When students like Ashlyn or Robert 
ask the question, ``How do students like me do at this institution?'', 
the data can paint that picture. 
                             in conclusion
    In the words of Kim Cook, executive director, National College 
Access Network,

          ``Today's students are in need of the right information to 
        help them make decisions to attend a school that best matches 
        their academic qualifications and provides the best environment 
        to support ultimate completion. We are encouraged that a 
        conversation is widening on the topic of information available 
        to students.''

    My colleagues and I feel that all students deserve effective 
postsecondary advising. Ideally, students can get valuable information 
from their school counselors or college counselors. However, not every 
school has a college counseling department or professional. There must 
be a way that we can grow college access organizations in communities 
to impact the students who need it the most because those who need it 
most are at the greatest risk of not matriculating to college and/or 
succeeding. Our low-income and first-generation students are suffering 
and not competitive for high-wage jobs.
    Sure, students can ``google'' their way to making a college 
decision, but that choice may not be the best fit. ``Vital elements are 
missing,'' stresses Cook about college transparency around the 
publicizing of pertinent data. These data are central to helping 
students select the best fit institution where they are most likely to 
graduate.

    The Chairman. Thank you, Ms. Lightfoot.
    Ms. Mitchell.

    STATEMENT OF TALEAH MITCHELL, GRADUATE, SEATTLE CENTRAL 
                      COLLEGE, SEATTLE, WA

    Ms. Mitchell. Good morning, Chairman Alexander and 
honorable committee members. Thank you for the opportunity to 
share information about my successful educational journey. I am 
very excited and pleased to be here.
    I would also like to thank Senator Murray from my home 
State of Washington for her steadfast support of adult basic 
education programs.
    Last but not least, I would like to thank you also for the 
Federal financial aid that has given me the opportunity to move 
from less than desirable circumstances into what has enabled me 
to pursue my dreams and go for more.
    When I was younger, I could have never imagined sitting 
before a congressional committee in Washington, DC. I am very 
honored and humbled to be here.
    My name is Taleah Mitchell. I am one of the hundreds of 
thousands of students who have transformed their lives at a 
Washington State community or technical college. For me 
specifically, the turning point was a basic education for 
adults program called I-BEST, which stands for Integrated Basic 
Education and Skills Training. In this testimony, I hope to 
share my personal story clearly, describe how it fits into the 
larger narrative of Washington's community and technical 
college system, and provide ideas for how the Federal 
Government can strengthen information and support for non-
traditional college students.
    In my opinion, we are a very important group of people that 
a lot of times are under-represented. There is quite a few of 
us and we have a colorful story and we are quite capable of 
achieving a lot more than what is thought of us and what is 
expected of us.
    To give you all a little bit of background information for 
me, I am 27 years old, and being a non-traditional student, I 
went to the fourth grade in San Francisco, CA. That is 
something that is somewhat typical for me as a Roma descendent, 
which is gypsy nationality. I studied quietly on my own, 
learning to read and write because at a young age I understood, 
for whatever reason, the value of education and knew that I 
wanted to achieve a lot more in my life.
    At 16 in Chicago, I started studying for my GED. I passed 
the assessment with flying colors at the institution where I 
was studying. Five months later, I took the GED test. I scored 
extremely high percentiles in everything except for math. 
Instead of getting discouraged and giving up, I decided that I 
needed to take remedial math courses at a different setting, 
and that was at Harold Washington College in Chicago, and I was 
able to take regular college-level courses in conjunction with 
that. I was given a Starlight Award from Literacy Chicago 
because of a commitment to literacy and efforts as a public 
relations intern at the organization.
    During the second semester, I had to drop out and help run 
my family's business. A year later, I took the GED again, this 
time in West Virginia and passed all the portions.
    Later on during that time in my life, things got really 
difficult for my family, and I was kind of thrown in chaos and 
moved around a lot. I worked entry-level jobs that were far 
beneath my capabilities and barely got my family and myself 
anywhere. The GED got me a job but it did not get me a career, 
and I was still going job to job and paycheck to paycheck.
    My turning point was at the age of 25 in Seattle at the 
YWCA. I saw a flyer for the I-BEST program through Seattle 
Central College. I learned that I-BEST offered a clear path to 
an in-demand field with a wide array of support services. A 
counselor explained that they would be with me every step of 
the way, and they helped me with everything that came from 
applying for financial aid, looking through course catalogs, 
planning schedules, finding classes, managing my time, and 
overall just being a life coach for my life, which is really 
imperative.
    With I-BEST, the hallmark is you have two instructors in 
the same classroom. This tag team teaching approach gives a 
student the opportunity to have lots of time with their 
instructors. One instructor teaches job skills, and with that, 
students learn foundational skills at the same time they are 
trained for in-demand jobs. The other instructor provides 
skills like reading, writing, math, and English language. It is 
really amazing. The information sticks because you have access 
to all these people, and with this two-for-one approach, 
students learn more thoroughly and in a shorter amount of time.
    I earned a certificate in business information technology, 
and as a requirement for graduating with that certificate, I 
had an internship and I served as a teaching assistant and a 
math tutor in I-BEST in the same classroom that I started with. 
I got to come full circle.
    At Seattle Central College, I was inducted into the honor 
society. I was one of the student body presidents. I served on 
a scholarship board. These are things I never dreamed I would 
be capable of doing.
    With I-BEST, I really want to emphasize that without the 
financial aid that was afforded to me, I would have never been 
able to go into any type of higher education institution. The 
BFET program, or Basic Food and Employment Training, which is 
Washington State's version of the SNAP program, unemployment 
benefits, grants, and financial aid, including the Pell Grant, 
gave me the reassurance that I would be able to not only do 
this but complete this.
    At Seattle Central College, I was approached by Amherst and 
Smith Colleges to actually pursue the degree that I wanted for 
women's studies and computer science. My father fell ill during 
that time with cancer, and that opportunity for me was cut 
short. But, I do plan to continue my education with computer 
science and women's studies, to continue and complete that.
    I would love to inform you that my brother at this point--
my younger brother--has also enrolled in Seattle Central 
College and is following in my footsteps and is also looking at 
the government board as well.
    My final recommendations for you guys is that college 
career pathways gives us basic skills, workforce, academic 
transfer, and it is imperative that we continue to fund those 
programs. The old notion that basic skills education ends at 
the GED is very outdated, as I hope to witness to you. It did 
not get me as far as I would have like it to have gotten me.
    The WIOA program, which is Workforce Innovation Opportunity 
Act, enables I-BEST and programs like that to happen and 
enables students like myself to succeed.
    Some of my ideas is to remove the cost barriers to students 
by fully funding the program and expanding opportunities for 
students to repay loans based on how much they earn. Student 
debt, as you brought up, is a growing national crisis, and we 
need to be able to power through that.
    We also need a centralized education option for prospective 
students, so a central Federal portal that contains relevant 
college information, whether it be a website or possibly an 
app, I think would be really powerful. I was really lucky to 
find a flyer at the YWCA. It was pretty random that I just 
walked in and saw that. A lot of students do not have that 
opportunity--and prospective students--which is something that 
having a portal would enable them to do.
    In conclusion, the future of our country depends upon 
higher education, and I appreciate your dedication to ensuring 
all Americans can step up on this path anytime in their lives. 
I obviously would not be here without the opportunities you all 
helped afford and through funding our Nation's 2-year colleges 
and the innovative programs created for adults like me.
    Thank you very much for your time.
    [The prepared statement of Ms. Mitchell follows:]
                 Prepared Statement of Taleah Mitchell
                                summary
    My name is Taleah Mitchell. I'm a 27-year-old, nontraditional, 
first-generation student of Roma descent. I grew up in San Francisco 
and went to public school through the fourth grade, when my formal 
education came to an end. Nevertheless, I continued to study on my own, 
learning to read and write.
    Halfway through my 16th year, while living in Chicago, I took the 
GED test and scored in the top percentiles in all sections except 
math. I enrolled in a community college and took remedial math courses 
in conjunction with my college classes. During my second semester I had 
to drop out of school to help run the family business full-time.
    After eventually passing all portions of the test, the GED program 
got me a job, but it did not get me a career or move me out of a cycle 
of living from job-to-job and paycheck-to-paycheck, with no hope of 
saving any money.
    My turning point came when I discovered the I-BEST program at 
Seattle Central College at the age of 25. I-BEST gave me a clear path 
to an in-demand job, with a wide array of support services. Advisors 
helped me every step of the way, from start to finish and into a 
career. I-BEST uses a team-teaching approach that puts two teachers in 
the classroom: one to teach basic skills, the other to train students 
for in-demand jobs while using those basic skills.
    I earned a certificate in Business Information Technology and now 
work as an assistant manager at a major employer in Seattle.
    I am just one of thousands of nontraditional students who are 
changing their lives at one of Washington State's 34 community and 
technical colleges.
    I'd like to share a few recommendations for the committee to 
consider during future discussions:

    <bullet> Remove cost barriers for students by fully funding the 
Pell Grant program, and provide funding for advisors who can help 
students navigate the financial aid process. Financial aid was a big 
factor in my success. Advisors helped me weave together a financial aid 
package that included Basic Food and Employment Training--the 
Washington State version of the Federal SNAP program--along with 
unemployment benefits, grants and financial aid.
    <bullet> Ensure that any centralized portal for college information 
clearly identifies programs like I-BEST that have defined pathways 
through college and into careers. Students need to know what's 
available to them so they can make well-informed choices.
    <bullet> Provide legislation and funding support for college-to-
career pathway programs. This includes fully restoring the Ability to 
Benefit option under the Pell Grant.

    The future of our country depends upon higher education and I 
appreciate your dedication to ensuring all Americans can step on this 
path at any time in their lives. Thank you.
                                 ______
                                 
    Chairman Alexander and honorable committee members, thank you for 
the opportunity to share information about my successful educational 
journey. I'd also like to thank Senator Murray from my home State of 
Washington for her steadfast support of Basic Education for Adults 
programs.
    Thank you, also, for the Federal financial aid that has given me 
the opportunity to move from low-income into college so that I can 
achieve my dreams in life. When I was younger, I could never have 
imagined sitting before a congressional committee in Washington, DC. 
I'm honored and humbled.
    My name is Taleah Mitchell. I'm one of the hundreds of thousands of 
students who have transformed their lives at a Washington State 
community or technical college. For me, the turning point was a Basic 
Education for Adults program called I-BEST (Integrated Basic Education 
and Skills Training).
    First, a little context on my background.
    I'm a 27-year-old, nontraditional, first-generation student of Roma 
descent. I grew up in San Francisco and went to public school through 
the fourth grade, when my formal education came to an end.
    From the ages of 10 to 16, I studied quietly, learning to read and 
write.
    Halfway through my 16th year, I learned I could study to receive a 
GED. With this newfound knowledge, I found an organization called 
Literacy Chicago, an adult basic education organization. I passed the 
assessment test with flying colors and moved straight into GED 
preparation classes.
    After 5 months, I took the GED test and scored in the top 
percentiles in all sections except for math. Instead of getting 
discouraged, I decided to study math in a different setting while 
beginning my college career. I took a college placement exam at Harold 
Washington College in Chicago and placed straight into non-math, 
college-level courses.
    Because of my high marks, I was able to take remedial math courses 
in conjunction with my college classes. In 2006, I was given a 
Starlight Award from Literacy Chicago because of a commitment to 
literacy and efforts as a public relations intern at the organization.
    During my second semester at Harold Washington College, my family 
met with difficult times and I had to drop out of school to help run 
the family business full-time.
    A year after my college experience, I took the GED test once 
again--this time in West Virginia--and passed all portions of the test.
    However, my life was thrown into chaos once again when the family 
business collapsed and we bounced around from several different States. 
At each place, I found myself only able to work entry-level jobs that 
were beneath my capabilities and barely kept my family afloat.
    The GED program got me a job, but it did not get me a career or 
move me out of a cycle of living from job-to-job and paycheck-to-
paycheck, with no hope of saving any money.
    I was trapped in a cycle of economic insecurity with no way out.
    My turning point was at the age of 25, when my family landed in 
Seattle. I wandered into a YWCA and saw a flyer for the I-BEST program 
through Seattle Central College.
    I learned that I-BEST offered a clear path to an in-demand job, 
with a wide array of support services. A counselor explained that 
they'd be with me every step of the way, from start to finish and into 
a career. And that's exactly what happened. Advisors helped me apply 
for financial aid, look through course catalogs, plan schedules, find 
classes and manage my time.
    The hallmark of I-BEST is that it puts two instructors in the same 
class at the same time: one teaches basic skills like reading, writing, 
math and English language, and the other teaches job skills. Students 
learn foundational skills at the same time they train for in-demand 
jobs.
    The information sticks, because students can immediately apply what 
they've learned in a real-world setting. And, because it's a two-for-
one approach, the classes can be completed in a shorter timeframe.
    I earned a certificate in Business Information Technology. One of 
the final requirements was to have a working experience in the field of 
study. Interestingly, I served as a teaching assistant and as a math 
tutor in the same I-BEST class where I had been a student and in the 
very subject that I had struggled with earlier in my life. It was 
exciting to come full circle.
    During my time at Seattle Central College, I got into honors 
society, became student body president and served on a scholarship 
board. I never lost passion for education or for my fellow 
nontraditional students.
    Naturally, financial aid was a big factor for me. Advisors helped 
me weave together a financial aid package that included Basic Food and 
Employment Training--the Washington State version of the Federal SNAP 
program--along with unemployment benefits, grants and financial aid. 
This gave me reassurance that the rug wouldn't be pulled out from under 
me, as it had so many times in the past.
    Today, I have a career as an assistant manager with a leading 
Seattle-based employer and intend to continue my studies. While at 
Seattle Central, I was approached by Amherst and Smith colleges, but my 
father fell ill and I chose to stay in Seattle. I'm happy to say my 
brother has followed my footsteps and is currently attending Seattle 
Central College.
    As I mentioned before, I am fortunate to sit before you as one of 
thousands of success stories made possible by Washington's community 
and technical college system.
          washington state's community and technical colleges
    The college I attended--Seattle Central College--is one of 
Washington State's 34 community and technical colleges. Altogether, 
they serve nearly 400,000 students each year. The college system dates 
back to 1967, when it was created by the State Legislature. In 1991, 
the Legislature added technical colleges to the system. The colleges 
are organized into 30 districts spread across mountains, cities, 
rivers, and islands touching every corner of the State.
    Colleges work together to present the State Legislature with a 
single operating and capital budget request. When those budgets are 
passed, the State funding goes to the State Board for Community and 
Technical Colleges, which then allocates funds to the colleges. This 
allows colleges to serve their individual communities while forming a 
powerful network to advance Washington's economy.
    The strength of this system is not only in its organization. It's 
also in its mission to open the doors to higher education for all 
residents of Washington State, regardless of their personal or academic 
backgrounds. For nontraditional students, they offer a second chance 
for a new life.
    The education at these 2-year colleges is practical, promising and 
purposeful. Colleges use innovative instruction models, work closely 
with local employers and labor representatives, and partner with 
universities to serve the unique needs of nontraditional, 21st century 
students.
    The average Washington community or technical college student is 26 
years old. Forty-three percent work, 28 percent are parents, and 42 
percent are students of color.\1\
---------------------------------------------------------------------------
    \1\ SBCTC Fall Quarter Enrollment and Staffing Report .
---------------------------------------------------------------------------
    As you can see, the average student isn't what it used to be. We 
are adults that need supported, accelerated, real-world services that 
save us time and money.
    The beauty of community and technical colleges is that programs are 
built and sustained locally to meet the economic and employment needs 
of the community. All of the job-training programs are led by customer 
advisory committees made up of community leaders, business and labor 
representatives, and college faculty and staff. These committees create 
and build curricula aligned with emerging industry demands and 
employers' needs.
                      college and career pathways
    In Washington State, education is a continuum--from early learning, 
through K-12 and college, and into a career. At the heart of the 2-year 
college system is a college and career pathway model that allows 
students at any skill level or life stage the opportunity to earn a 
college credential and climb a career ladder. I-BEST is a perfect 
example.
    In Washington State, the average annual income of the typical 
associate-degree graduate is 33 percent more than someone with a high 
school diploma alone. These income levels rise with each level of 
education earned and open greater possibilities for students and 
employers.\2\
---------------------------------------------------------------------------
    \2\ Washington State Student Achievement Council presentation to 
House Higher Education Committee, Jan. 14, 2014.
---------------------------------------------------------------------------
    The Workforce Innovation and Opportunity Act (WIOA) solidified the 
importance of a college and career pathway. States are now required to 
provide opportunities for employment, education and training needed for 
today's global economy. WIOA requires college Adult Basic Education 
programs to move students past the GED level and into college or 
careers.
    Connecting students to a college and career pathway has never been 
more important. By 2016, nearly three-fourths of available jobs in 
Washington State will require at least a postsecondary credential.\3\ 
Over the next 20 years, there simply won't be enough high school 
graduates to meet the higher education needs of Washington State's 
workforce. Our State will need to fill the gap with older adults--a 
faster growing population that is burgeoning in areas of the State with 
less educational attainment.\4\
---------------------------------------------------------------------------
    \3\ 2013 Roadmap: A Plan to Increase Educational Attainment in 
Washington, by Washington Student Achievement Council.
    \4\ SBCTC research findings: ``Washington State Population and 
Employment Data 2010-2030, Implications for Community and Technical 
Colleges.''
---------------------------------------------------------------------------
    I know from personal experience that Washington State's community 
and technical colleges are key to filling employment gaps with skilled 
workers because they did that for me. It's critical for underskilled, 
sometimes underemployed adults to have the same access to innovative, 
accelerated and meaningful educational and workforce training. And now 
they do.
    In addition to WIOA, the Washington State Basic Education Plan: 
Pathways to College and Careers for Washington's Emerging Workforce is 
focused on getting students through college faster and into living wage 
jobs. Programs under this plan move people further and faster along 
well-defined pathways into college and careers. The plan builds upon 
the proven success of the I-BEST program in moving students rapidly 
toward industry-recognized credentials that lead to well paying, long-
term careers. I'm an example of this program's success: from where I 
started, to where I am today, and where I'm going tomorrow.
    Washington State's community and technical college adult education 
providers partner with regional agencies, organizations, institutions, 
and industry leaders to build, scale and maintain demand-driven career 
pathways to meet emerging employer needs. Certificates are marketable 
and stackable, meaning that each certificate builds on the other to 
lead to a longer-term certificate or associate degree. These pathways 
connect education, training, and support services in new ways that 
foster success for all individuals as intended under WIOA.
                          innovative programs
    Washington State's 2-year colleges serve nearly 6 out of every 10 
students in public higher education.\5\ The community and technical 
college system focuses on three mission areas: basic skills, workforce 
and academic transfer. All three mission areas share the same goal: 
move every student through college and into a life-sustaining job.
---------------------------------------------------------------------------
    \5\ Fifty-seven percent per Washington State Office of Financial 
Management 2013-14 Budget Driver Report.
---------------------------------------------------------------------------
Basic skills
    Basic Education for Adults (BEdA) programs teach foundational 
skills such as reading, writing, math and English language, so adult 
students can move through college and into living wage jobs. Unlike 
other States, BEdA programs are contained in the State's 2-year college 
system instead of the K-12 system. Programs are aligned with the WIOA 
principle of a college and career pathway that contains crucial 
milestones and goals for students to reach along the way. Community and 
technical colleges partner with community-based organizations to help 
serve the estimated 650,000 to 700,000 Washington adults who lack the 
basic skills necessary to be successful.\6\
---------------------------------------------------------------------------
    \6\ SBCTC, 2008-12 5-year; 2010-12 3-year American Community Survey 
estimates.
---------------------------------------------------------------------------
    Washington State BEdA programs:

    <bullet> Serve adults at least 16 years old who have skills below a 
high school graduate or need English language skills;
    <bullet> Include General Educational Development (GED) and high 
school diploma programs;
    <bullet> Use a team teaching approach such as I-BEST (Integrated 
Basic Education and Skills Training);
    <bullet> Integrate instruction with technology; and
    <bullet> Teach employability or ``soft skills'' such as 
communication, time management, problem solving and decisionmaking.
High school completion
    Washington State's community and technical colleges not only open 
the door to college, they also help students finish a high-school level 
diploma or credential. Colleges offer GED preparation and testing, as 
well as innovative programs like High School 21+, a competency-based 
diploma for adults 21 and over that awards credit for prior learning 
and military and work experience. These programs give all 
Washingtonians, regardless of age or skill level, the opportunity to 
complete high school and connect to a college and career pathway that's 
right for them.
I-BEST
    As I mentioned, the I-BEST program was my ticket to a new life. 
Nationally recognized, the program is modeled in more than 20 States 
including Tennessee, Oregon, Wyoming, Wisconsin and Massachusetts. It 
uses a team teaching approach that combines basic skills classes with 
job training classes to move students faster to completion and into 
living wage jobs. This combined teaching method allows students to 
begin college-level coursework immediately, so they don't have to move 
through a mandated sequence of basic skills classes first. Students 
save time and money and learn skills in ways applicable to their career 
goals.
    In my case, dedicated instructors helped me brush up on basic 
skills as I simultaneously learned information technology skills.
    I-BEST now serves nearly 4,000 students. Programs include 
healthcare, automotive, manufacturing, transportation, early childhood 
education, aeronautics and office technology. Students enrolled in I-
BEST programs are:

    <bullet> Three times more likely to earn college credits and nine 
times more likely to earn an industry-recognized credential than 
students in traditional programs who must complete basic skills classes 
before training for employment.\7\
---------------------------------------------------------------------------
    \7\ SBCTC, ``'Educational Outcomes of I-BEST, WA State Community 
and Technical College System's Integrated Basic Education and Skills 
Training Program,'' Community College Research Center, Columbia 
University, May 2009.
---------------------------------------------------------------------------
    <bullet> Earn an average of $2,645 more in wages each year and 
receive twice the work hours per week (35 hours versus 15 hours) than 
similar adults who do not receive basic skills training in any form.\8\
---------------------------------------------------------------------------
    \8\ Workforce Training and Education Coordinating Board, Workforce 
Training Results, 2014.
---------------------------------------------------------------------------
                               workforce
    Washington State's workforce system includes multiple State 
agencies, organizations and stakeholders that partner to provide real-
time education and training that directly align with high-demand jobs. 
The 2-year college system plays an important role in developing 
relevant curricula, job training programs for employers, and industry 
partnerships to keep pace with today's changing workforce demands. 
Washington State's community and technical colleges along with their 
former students contribute approximately $11 billion to the State's 
economy each year.\9\ I'm proud to be among them.
---------------------------------------------------------------------------
    \9\ Economic Modeling Specialists, Inc., Economic Contribution of 
Washington's Community and Technical Colleges: Analysis of Investment 
Effectiveness and Economic Growth, 2011.
---------------------------------------------------------------------------
    With statewide business and labor, Washington State's community and 
technical colleges offer a wide array of professional-technical 
programs in high-demand fields. These include agriculture, aerospace, 
business administration management, composites, nanotechnology, 
nursing, and welding.
Basic Food, Employment and Training
    As I mentioned, I benefited greatly from the Washington State Basic 
Food, Employment and Training (BFET) program. The program provides 
training and job-search help for people who receive food assistance so 
that they can earn industry-recognized credentials and land living-wage 
jobs. Nearly 10,000 2-year college students are receiving BFET benefits 
with funding through the U.S. Department of Agriculture.\10\ All 34 
colleges participate across Washington State.
---------------------------------------------------------------------------
    \10\ SBCTC BFET program, 2014-15.
---------------------------------------------------------------------------
Work-based learning
    Washington State's 2-year college system offers a variety of work-
based learning opportunities that benefit both students and employers. 
Work-based learning allows students to experience how the things they 
learn in the classroom are connected to real careers. Examples include 
apprenticeships, intern or externships, and work study.
    Without a work-based learning option, I wouldn't have had the 
opportunity to obtain important skills needed to be successful in 
today's job market. These options are important for students starting 
in their careers or retraining for a new field.
                           academic transfer
    Washington State's 2- and 4-year colleges and universities have one 
of the strongest transfer systems in the country. This includes but is 
not limited to:
    <bullet> Common course numbering, which makes it easier for 
students to transfer to different colleges within the 2-year system;
    <bullet> Prior learning assessment, which helps students start or 
continue college at the place that best fits their previous academic or 
workforce experience; and
    <bullet> Direct transfer agreements and major related pathways, 
which allow students to transfer at the junior level or enter directly 
into a major.

    Forty percent of all Washington public baccalaureate graduates 
started a 2-year college. These transfer students graduate with similar 
GPAs as those who start as freshmen.\11\
---------------------------------------------------------------------------
    \11\ SBCTC, ``The Role of Transfer in the Attainment of 
Baccalaureate Degrees at Washington's Public Bachelor's Degree 
Institutions, Class of 2011,'' 2013.
---------------------------------------------------------------------------
                            serving students
    Washington State's 2-year colleges serve students from all academic 
backgrounds, skill levels and work experiences. Their educational goals 
are as varied as the dreams that led them to enroll. Colleges use 
multiple tools and resources to reach students with these unique 
backgrounds. As I've mentioned, I am one of these students. I directly 
benefited from advising and career counseling, not to mention multiple 
financial aid options to help me pursue college.
Proactive or intrusive advising
    Student advising is a priority of Washington State's community and 
technical colleges. Through proactive or intrusive advising, colleges:

    <bullet> Purposefully intervene to motivate students;
    <bullet> Build student trust through regular communication;
    <bullet> Inform students of all available postsecondary options; 
and
    <bullet> Work proactively to help students avoid difficulty.

    Students excel when they are supported and understand that each 
step of their pathway counts. That's how I was able to finish my 
certificate and land a job in my current career field. My advisor at 
Seattle Central College helped me the entire time, from career 
counseling and class scheduling to writing resumes and pursuing work-
based learning options.
    I also received help understanding and applying for financial aid 
options, which made a huge difference.
Financial aid
    Student debt is a critical issue in Washington State and across the 
Nation. In 2013-14, 32,244 2-year college students borrowed an average 
of $5,617 in student loans.\12\ Nearly half of the students in eligible 
programs receive financial aid.\13\
---------------------------------------------------------------------------
    \12\ Washington State Student Achievement Council, 2013-14.
    \13\ SBCTC, Academic Year Report, 2013-14.
---------------------------------------------------------------------------
    While tuition at a Washington State 2-year college seems like a 
bargain at approximately $4,000 per year, it can pose significant 
challenges for students who don't have extra financial resources to 
cover college expenses. Students not only have to pay for tuition, but 
required textbooks and materials to complete coursework.
State Need Grant
    In addition to receiving a Federal Pell Grant, I also received the 
Washington State Need Grant to help cover the cost of my college 
education. For more than 40 years, the State Need Grant has been 
providing financial aid to disadvantaged students. Eligible students 
with a household income less than $58,500 (for a family of four) are 
able to use the grant at 2- and 4-year higher education institutions as 
well as many accredited private or independent colleges, universities, 
and career schools in Washington State.
    After the Great Recession, Washington, like many other States, 
experienced significant budget constraints. With approximately 32,000 
eligible students not receiving State Need Grants due to lack of 
funds,\14\ cost continues to be a barrier for many students in 
completing college and succeeding in today's job market.
---------------------------------------------------------------------------
    \14\ Washington State Student Achievement Council, 2013-14.
---------------------------------------------------------------------------
                            recommendations
    As part of my testimony, I have a few recommendations for the 
committee to consider as discussions continue on national higher 
education policy.

    <bullet> Remove cost barriers for students. With over $1 trillion 
in loans,\15\ student debt is a growing national crisis. The Federal 
Government is in a unique position to help students and higher 
education institutions with this problem. Removing cost barriers makes 
a big difference in access and affordability for nontraditional 
students.
---------------------------------------------------------------------------
    \15\ Consumer Financial Protection Bureau, 2013.
---------------------------------------------------------------------------
    Instead of creating new loan programs that may burden low-income 
students with more debt, consider increasing resources to grant 
programs, like Pell, that are already a proven success. Without the 
Pell Grant, I would have been unable to pursue college and obtain my 
current management position with a leading Seattle employer.
    I also recommend providing financial support for college advisors 
to help students navigate the financial aid process and find 
scholarships. It's not an easy process, particularly when there's no 
one in your family who has been through it before.
    <bullet> Centralize educational options for prospective students. A 
central Federal portal that contains all relevant college information 
for prospective students could be helpful. However, some college 
completion calculations paint an incomplete picture of community and 
technical colleges. For example, as a nontraditional returning student, 
I wouldn't have been counted in the U.S. Department of Education's 
College Scorecard.
    This type of portal can, however, provide better visibility for 
programs like I-BEST. This will help students and high school advisors 
make informed choices. I was fortunate to see a flyer at a YWCA, but 
the programs deserve greater visibility and students need to know about 
available opportunities.
    <bullet> Support college and career pathways. As I mentioned, a 
clear career pathway and proactive advising model were critical for my 
success as a student. I encourage continued support for these pathways 
through legislation and funding to ensure all students have the 
opportunity to plug into college and ultimately, a career at any point 
in their lives.
    For those without a high school diploma or credential, it is 
critical these prospective students have access to Ability to Benefit 
under the Pell Grant. This provides tuition assistance, allowing 
students to afford college, obtain an industry-recognized certificate 
or degree, and move into a living wage, high-demand job.

    In closing, I would like to once again thank you for this 
tremendous opportunity. The future of our country lies within higher 
education and I appreciate your dedication to ensuring all Americans 
can step on this path at any time in their lives. My journey has led me 
from a difficult past into a much brighter future.

    The Chairman. Thank you, Ms. Mitchell.
    We will now begin a series of 5-minute rounds of questions.
    Ms. Lightfoot, Senator Bennet and I and others have 
introduced the FAST Act, which would simplify student aid 
forms. You referred to it.
    Would you explain to the committee why it makes a 
difference to provide students with their financial aid 
eligibility information in their junior year in high school 
rather than their senior year. What difference would that make 
in their college search?
    Ms. Lightfoot. Absolutely. Most families can file their 
FAFSA's in January. Some colleges will get financial aid 
packages----
    The Chairman. Of their senior year.
    Ms. Lightfoot. Of their senior year, absolutely. January of 
the senior year, and they need the prior year taxes. When a 
student fills out the FAFSA and their families fill out the 
FAFSA in January, some colleges can get those packages back in 
March, some in April, some in May. Some State schools do not 
give students their financial aid award letters until June, 
which does not give students enough time to make informed 
decisions, especially if there is a financial gap where the 
student may not have enough money to go to their first choice.
    The Chairman. Where a student might be expected to begin 
college in August.
    Ms. Lightfoot. Absolutely.
    In my written testimony, I talked about a student who 
received a financial aid package and did not have enough money 
to complete his first semester of college, and that student had 
to drop out of school after his first semester and at the age 
of 26 can no longer enroll in another school because he had 
acquired debt from his first semester going to a particular 
college. Had he had information the year before, he could have 
spent that year making up the difference, working longer hours, 
and using more strategies, applying for more scholarships to 
fill in the financial aid gap. It does not give students enough 
time to plan. A lot of our low-income, under-represented 
students--families do not plan financially for their education, 
and they rely on Federal funds and State funds to do that.
    The Chairman. If I could go on to another question.
    Ms. Lightfoot. Absolutely.
    The Chairman. I have got a limited amount of time. That is 
very helpful.
    Mr. Schneider, you have been on both sides of it. You have 
been in the Government collecting information, and you have 
been out in the private sector trying to help States 
disseminate that information to students to make the right 
choice.
    This is the 900-page document. If I understand this 
correctly, this is what every institution has to disclose 
because we require them to. Now, how do you get this 
information into the hands of students in a useful way to 
choose among the 6,000 institutions we have?
    What you say in your testimony is while the Federal 
Government can be a powerful actor in creating databases, it is 
far from the best actor when it comes to disseminating the data 
in a usable form. The long and contentious history of gainful 
employment and the shorter but equally fraught history of the 
current attempts to create a college rating system show the 
dangers of Federal overreach. I believe the Federal Government 
should help create high quality databases and then make the 
data widely available. Many efforts will follow as States, 
companies, other efforts experiment with different user 
interfaces.
    How much data should the Government collect? Is all this 
needed? And second, who should try to put the data in the hands 
of the students? You seem to think the Federal Government is 
not particularly good at that part of the job.
    Dr. Schneider. That is correct. The statute of limitations 
on me apologizing for IPEDS has expired. When I was at NCES, I 
spent a lot of time apologizing for it, but that is gone.
    Yes. You have to remember, of course, that IPEDS has just 
expanded over time. It fulfills many, many purposes.
    The Chairman. Explain IPEDS.
    Dr. Schneider. The Integrated Postsecondary Education Data 
System.
    The Chairman. That is this?
    Dr. Schneider. That is that. That is a printed version of 
that.
    As you noted in the white paper you put out about consumer 
information, much of the data collected in IPEDS is 
congressionally mandated. At NCES, we tried very hard to reduce 
some of the burden on institutions, but the fact of the matter 
is that we could not say we are not collecting these data 
because various laws said these data must be collected. A lot 
of the data that is collected has been mandated by Congress for 
a variety of purposes, not necessarily for consumer 
information.
    There was remarkable agreement among the witnesses about a 
handful of measures, if we are really serious about consumer 
information. There is a handful of measures that students need 
to know, and I have listed the five questions that I thought 
could structure the data that is required or that is needed for 
students to understand what their choices are.
    I believe that the Federal Government can, for example, do 
a much better job in collecting the wage data and the labor 
outcome data than any State or private institution can do. The 
fact of the matter is that those data need to be disseminated 
to other Federal agencies, to State governments, to 
researchers, to companies so that we could all experiment with 
different kinds of interfaces apps--different kinds of 
applications. Websites that would help students make a much 
better choice about where to go and what to study.
    The Chairman. Thank you, Dr. Schneider.
    Senator Murray.
    Senator Murray. Thank you very much.
    Ms. Mitchell, thank you. Truly inspirational story. I 
really appreciate your sharing it.
    I wanted to ask you when you walked into that YWCA in 
Seattle and saw a poster for I-BEST, what attracted you to 
that? What was it that made you say that is what I want to do?
    Ms. Mitchell. There were two sentences that literally just 
spoke to me. One was college-bound program, and clear pathway 
to success. I was like what is that. I can actually get back to 
school. This is a program where I can actually get back to 
college and have a clear pathway to get where I want to go.
    Senator Murray. You talked about going on to get your 
bachelor's degree--to a bachelor's program at some point. What 
factors are most important to you as you consider different 
college options to do that?
    Ms. Mitchell. The success rate of the colleges, the 
graduation rate of the colleges is important to me, but also 
the staff, the teachers, and how accessible the school is and 
how much support the school gives the students. The support 
services are the most important thing to me. That is what has 
carried me through everything. There were times when I thought 
I am never going to be able to do this, or I might not be able 
to finish, or when I just needed someone to give me direction, 
having that support changed everything. It is a game-changer. 
When looking at universities, Smith and Amherst, for example, I 
got to meet the recruiters and the people at those schools, and 
so I got to learn that these people are really in your corner 
and they motivated me as a student without even being in their 
school, and that is what made me really just want to go there.
    Senator Murray. Ms. Lightfoot, you are nodding. Is that 
what you hear?
    Ms. Lightfoot. Absolutely. The question that students have 
is how do students like me do at this institution and as a 
translator--and Ms. Santiago mentioned it. Students need 
translators, and how do we buildup a team of translators where 
students like Taleah can get the information and know that this 
is a school that has a robust amount of support that can work 
with students like her. It is the information that I can gather 
as a practitioner on graduation rates and how well do Pell 
Grant students do at the school where I can lead students to 
schools like Smith or Amherst or Oglethorpe or the University 
of the South where I can say as a practitioner this school does 
a great job with students like you, with poor students, with 
first-generation students. Collecting that information and in a 
place where it is easy for me and other practitioners to access 
is very helpful to lead Taleah to schools like a Smith and 
Amherst or UTK, et cetera.
    Senator Murray. Thank you.
    Mr. Schneider, you recommended that the Federal Government 
should do a better job of creating high quality data and then 
making the data widely available to States and community 
organizations that work with students. What kinds of vital 
information are we missing today?
    Dr. Schneider. I believe that, as I noted, the concern 
about institution level data is wrong because so much happens 
at the program level. We need things like graduation rates at 
the program level. We need the economic outcomes, job placement 
numbers, wages. Right now I work with seven States or I have 
worked with seven States to track the students into the labor 
force and track their earnings 1, 5, and as much as 10 years 
afterwards, and this is all at the program level. There is a 
wide range of outcomes at the program level. That institution 
level data which, for example, the College Scorecard will pick 
up is just not going to catch it.
    Senator Murray. How do we collect that data?
    Dr. Schneider. Well, this is where the Federal income tax 
data is the most useful. I believe we should start with 
matching FSA data to the income tax data, and ultimately I 
believe that we should allow States to work with the IRS to 
match their data. We have to have rigorous safeguards, privacy 
safeguards in place, but we can do that. I believe that the 
States have very detailed student level data, and that could be 
merged with these outcomes data for information like job 
placement, career growth, and earnings.
    Senator Murray. Ms. Santiago, you recommended that we 
disaggregate Federal data and higher education much like we do 
under ESEA by the very characteristics that define what you 
call post-traditional students. Do you think we have enough 
information on student outcomes today?
    Ms. Santiago. I do not believe we have sufficient 
information. The challenge for me in sufficient information is 
that the current measures we have do not capture those post-
traditional students. If you are a returning student or a 
transfer student enrolled part-time at any point, you are not 
in those graduation rates and it does not tell you an accurate 
picture of their outcomes. I think that is a challenge in 
figuring out how to inform and compel action for the students 
we have today and in the future.
    Senator Murray. How do we collect that?
    Ms. Santiago. I think we need to try to create competent 
cohorts that might be similar to graduation rates. That is not 
first-time full-time. We know we have the data already to 
create cohorts of part-time, first-time students, and we can 
cut the existing data in different ways to get there. I do not 
think there is any perfect way to do it, but we do need to make 
sure we include part-time students. We have experimented, 
including creating an FTE and looking at completion that way. 
The challenge is people do not understand how you do that, but 
we can do that with existing data. We have just not done it, 
and I think we should start with what we currently have rather 
than adding more and then making sure we are looking at it by 
those characteristics, students who need remediation and 
others. We have a lot of that data. We have to make better use 
of it.
    Senator Murray. Thank you.
    The Chairman. Thank you, Senator Murray.
    Senator Cassidy.

                      Statement of Senator Cassidy

    Senator Cassidy. Ms. Santiago, I really like what you just 
said.
    Let me toss it over to Dr. Schneider. It almost seemed like 
you need a regression analysis. It is not just program 
graduation rates. It is the characteristics of the student.
    Now, the for-profits, I have toured some for-profits, they 
make the point that their student population is quite different 
than that of a young man or young woman who goes to a State 
college, et cetera, et cetera. I think we have good testimony 
at the end of something which is quite different.
    Is it practical to have a regression analysis in which you 
take the characteristics of these students and you say, listen, 
you can self-select? We are not saying, listen, if you are this 
ethnic group or this family background or this income level, we 
predict your future. Rather, you click and you say at this 
institution someone of the background I choose will have this 
immediate, intermediate, long-term income, et cetera. Any 
thoughts?
    Dr. Schneider. I have done a lot of work on the issue of 
risk-adjusted metrics, which is part of what your question is 
about, and that is, students come with different 
characteristics, and therefore we expect or empirically their 
success rates are different--in different domains varies.
    One problem is the regression analysis--which variables do 
you put into this?
    Senator Cassidy. I bet you if you took Census track age, 
there would be two or three things that just leap out as 
statistically significant. Ms. Santiago is nodding her head 
yes. Feel free to weigh in. It seemed like you took two or 
three things.
    Dr. Schneider. There are two or three things that we 
absolutely know have to be included, and after that, we start 
getting into much more complicated issues.
    I work with ``Money Magazine,'' ``Money's'' ranking of the 
best colleges. We do value-added. We do the kinds of empirical 
analysis that you are talking about. That is a private 
magazine. If you do not like our ratings and you do not like 
the variables we choose, do not read the magazine.
    What I worry about is when the Federal Government gets 
involved in the risk-adjusted metrics business, the models 
become really much, much more important.
    We also allow our readers to change the weights on some of 
these things so then they care much more about certain of these 
characteristics than others.
    I take your point very seriously, and that is that we 
should allow personalized computation of ROI, personalized 
computation of how much it is going to cost. I have built 
applications where students----
    Senator Cassidy. I only have a couple minutes left.
    Ms. Lightfoot, I really love what you are doing. Let me ask 
because I have found that young people are often financially 
illiterate. My wife borrowed money in medical school, went to 
Australia, did not pay it off until after we married. If I 
sound bitter, I am.
    [Laughter.]
    When you send a young person off to Smith or Oglethorpe--
those are very expensive schools. I am sitting here thinking 
what is the ROI on that? You follow what I am saying? If they 
went to Tennessee, Chattanooga, they probably would pay less. I 
am asking. It almost seems like we would have to have a 
spreadsheet where you would put in your financial aid and you 
would put in what you are going to bring to the table, and then 
you would put in your career path and then you would put out 
the immediate kind of metrics that you are saying could vary. 
When I graduate, I am either going to be an Occupy Wall Street 
activist or I am going to earn six figures. If it sounds like I 
have a child going to college, yes, I do.
    Do you have that? It almost seems like you have to do a 
financial literacy for these young folks who are taking off for 
school. Otherwise, they will do exactly as you described one 
person ending up at age 26 having exhausted their loaning 
capacity with nothing but debt and no degree.
    Ms. Lightfoot. Absolutely. My point to that is having the 
translator. Because students do not go into college with that 
type of financial literacy, they are relying on a trusted 
adult, just as I relied on a trusted adult, to send me to a 
college 20 years ago that cost $25,000. Again, my mother only 
made $12,000. Susan Chipley would not have sent me to a college 
that did not meet my need. I trusted her enough to not put me 
in a situation where I would----
    Senator Cassidy. That is a remarkable set of circumstances, 
but sometimes there are charlatans as much as there are people 
of good will. It seems like we need to have something, I hate 
to say formalized because there is always going to be a bias, 
but there still seems like there has to be some sort of 
mechanism. A Good Housekeeping stamp of approval.
    Ms. Lightfoot. Absolutely. How can the Federal Government 
support more programs to buildup the team of translators so 
that every public school student can have access to a trusted 
and expert professional, college access professional, to lead 
them on the right direction. A lot of private schools will have 
counselors, a 30 to 1 ratio of counselor to student ratio, and 
in public schools there are 400 students to one counselor.
    Senator Cassidy. Just to say something that Dr. Schneider 
describes where someone could log on and put in their 
variables. Could that supplant these personnel? Because 
personnel are very expensive, whereas the app could be 
something that would be 99 cents on iTunes.
    Ms. Lightfoot. If the variables were right--and I would 
have to think about those a little bit more as to what 
variables they would be--it is something that I will try as a 
practitioner to see if it would lead me to some of the schools 
that I know in my head that do a great job putting their arms 
around students who are under-represented. I would have to just 
think a little bit more about what those variables would be.
    Senator Cassidy. It sounds like a good workshop.
    I yield back. Thank you.
    The Chairman. Thank you, Senator Cassidy.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    I think we all agree--I think there is total agreement 
here--that we want to be able to get useful information into 
the hands of prospective students in a timely fashion, at the 
right time.
    A number of you in your testimonies mentioned the 
importance of net price calculators. Last year, I introduced a 
bill with Senator Grassley of Iowa that would improve net price 
calculators which in an early manner, it sounds like the way 
students get this information is either through a counselor but 
very often by going to a search engine, browsing, finding it, 
and you get the schools. You are not getting it through the 
Federal Government. You are getting it from the school.
    In 2008, Congress required all colleges to post a net price 
calculator on their website, but very often they are not easy 
for students and families to find on those websites or to use. 
My bill would have colleges and universities put the 
calculators on the pages of their websites where prospective 
students are likely to look, such as the financial aid or 
tuition and fees page. I think the chairman said that the 
``Washington Post'' said what am I looking at.
    We want to have this net price calculator. This is so that 
kids, before they even apply, are not ruling out schools where 
they think they cannot pay for it, but my goodness, it turns 
out that maybe they could.
    We were talking about getting financial aid statements so 
late that you do not know. Even before you apply, you can go to 
a net cost calculator and put in your information and find out 
what that is.
    I am working to get this done in my bill, but in the 
meantime, does anyone have any ideas how we can make sure these 
colleges place their calculators on web pages that are easy for 
students to find?
    Dr. Schneider. May I just speak to that? Again, there are 
about 200 campuses, colleges that at the current time refuse to 
allow their net price calculators to be picked up by 
aggregators like the College Advocates. Schools originally hid 
their--they still do hide--their net price calculators deep in 
the bowels of their websites. NCES publishes--and the College 
Navigators--those links, but they should be prominently 
displayed. Also, the failure of the schools or the blocking of 
these net price calculators being picked up by aggregators is a 
serious problem that I think needs to be dealt with. There are 
over 200 schools at the current time that prevent that kind of 
aggregation.
    Senator Franken. OK. I think I am going to move on because 
I want to ask about later in the process, once you have gotten 
into the school, you get a financial award letter. I think we 
are all saying this net price calculator is important, and it 
is important that it be in a prominent place. OK, good.
    Ms. Santiago, many students' families do not have a clear 
picture of how much college is going to cost them. Some 
schools' financial aid letters do not distinguish between loans 
and grants. I have another bipartisan bill that would require 
universities to use a uniform financial aid award letter so 
that students and their families will know exactly how much 
college will cost them.
    When I first proposed this, I got emails from lots and lots 
of people, including counselors, who said families cannot, the 
kids cannot, I cannot make out the difference because some will 
say subsidized Stafford loan. It will say that. Others will 
have an F6302. I am not sure if they use that, but you get my 
point.
    How would a uniform award letter--most people when they 
think of a loan, do not think so much that it's an award. It is 
on an award letter. To make them distinguish, how would this 
help to have a uniform letter so that you can know exactly what 
you are getting?
    Ms. Santiago. I think it would be invaluable in the choices 
students make. We have found that letters just put a total 
amount at the bottom, and too many families, especially for 
low-income, first-generation, think that is the amount of money 
they will not have to pay back, and that actually includes 
loans and others. A uniform letter that clearly distinguishes 
between what they have to pay back versus what they are able to 
keep and it is free, that distinction is summarily important 
not just to list it, but to summarize it and having two numbers 
so that the families understand so when they do side-by-side 
comparisons, they can choose.
    Right now, there is no uniform letter, and we are having to 
translate not just through languages but like 15 different 
languages-plus, and I think that is not fair for students who 
are trying to make the best fit decision for them. I think 
uniform letters are absolutely critical.
    Senator Franken. OK. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Franken.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    We have been talking a lot about data, but I want to talk 
about a different database than the kind we have been talking 
about.
    The Department of Education maintains databases that are 
loaded with information on Federal student aid, on loans, on 
scholarships. Researchers, policymakers, and students cannot 
get answers to even the most basic questions. In a recent ``New 
York Times'' column, one researcher asked some pretty basic 
stuff. How many borrowers are delinquent on their loans? How 
does delinquency differ by level of education or amount of 
debt? Which colleges are doing a good job of graduating 
students who can pay their debt and which are leaving students 
under water? Pretty key stuff.
    Dr. Schneider, does the Department of Education have data 
to answer any of these questions?
    Dr. Schneider. Absolutely.
    Senator Warren. OK. They have the data.
    As Commissioner of the National Center for Education 
Statistics, was it your job, ``to disseminate full and complete 
statistics on financial aid?''
    Dr. Schneider. It was my hope to be able to do that.
    Senator Warren. Was it supposedly your job to do that?
    Dr. Schneider. No.
    Senator Warren. You were not supposed to--I am looking at 
the statute here.
    Dr. Schneider. I am sorry. There is a difference between 
what I hoped to do and what I was able to do and what I was 
mandated to do.
    Senator Warren. OK. Let us put it this way. Did you release 
this data?
    Dr. Schneider. Well, we released very preliminary data or 
very aggregated data through IPEDS.
    Senator Warren. Did you answer these questions?
    Dr. Schneider. No. We could not answer them.
    Senator Warren. OK. Now the question is why not.
    Dr. Schneider. Because FSA is not designed to provide those 
data to either the Federal Government, to other branches of the 
Department of Education, to other agencies in the Federal 
Government, or to anybody else. FSA is a big bank. The data 
systems are designed for business operations, not for the 
dissemination of----
    Senator Warren. Let me ask this another way. Did the 
Education Department make these data available to you so that 
you could answer these questions?
    Dr. Schneider. We negotiated several times with FSA to 
share data with NCES. We offered to pay for data runs. We asked 
them to provide us information about Pell Grants, about the 
success rates of Pell Grants.
    Senator Warren. Would they give you these data?
    Dr. Schneider. I do not know if they would but they did 
not.
    Senator Warren. OK. I will take they did not. I have got 
that as an answer.
    As I understand it, Federal student aid is this group 
within the Department of Education that is collecting these 
valuable data, but it will not make those data public. They 
hide it from the public, from policymakers, even from others at 
the Department of Education and the National Center for 
Education Statistics. This is nuts. The data are already 
collected and the Education Department will not turn them 
loose.
    Last year, I introduced an amendment to the Education 
Sciences Reform Act reauthorization bill to require the 
Secretary of Education to protect student privacy but to make 
these data available. I withdrew the amendment on the 
understanding that we would address this issue in the Higher Ed 
Reauthorization Act. And I hope that Chairman Alexander and 
Ranking Member Murray will work with me to make sure that we 
use the data we are collecting because we cannot fix student 
aid programs if the Department of Education refuses to tell 
Congress, to tell researchers, or to tell the public or even 
the rest of the Department of Education what it is that it 
knows. I just think this one is critical, Mr. Chairman, and I 
hope that is what we will focus on.
    The Chairman. Thanks, Senator Warren. I remember our 
discussion about that last year, and I did say that and we will 
work with you on that in the Higher Education Act.
    Senator Warren. Thank you.
    The Chairman. Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Ms. Mitchell, your story is really extraordinary. I do not 
want to put words in your mouth, but as we are seeking to 
figure out what data, what information is important to 
students, I assume that the reason that you were so committed 
to your journey to get your degree was because you wanted a 
higher quality of life, a better quality of life for yourself 
when you graduated. Is that correct?
    Ms. Mitchell. Absolutely.
    Senator Murphy. Ms. Lightfoot and Ms. Santiago, when you 
are talking to students whose main goal is that upon graduation 
of college, that they have a better quality of life than had 
they not gone to college or that they have a better quality of 
life because they went to this particular college versus that 
particular college, and that generally means that they are 
going to be able to get the job that they want. They are going 
to be able to make enough money to pay back their loans.
    What is the data that you use in order to compare one 
college against another in order to judge whether or not that 
person is going to be able to get the job they want or to be 
able to make the salary they want? What is the data that is 
available to you to make that comparison for students?
    Ms. Lightfoot. I will start.
    My approach is about fit, what postsecondary opportunity is 
the best fit for the student. If it is a 2-year college based 
on the student's circumstances, based on the student's 
personality, then we will look at those options.
    Senator Murphy. Let us say I am just a student. I just want 
to know. I want to know whether this college is going to get me 
a certain job. I want to know what chances I have to make this 
amount of money if I go to this school. Are you sort of saying 
that there is no one place where you can go and get that 
information for students today?
    Ms. Lightfoot. Based on my professional journey and the 
information that I am able to collect from colleagues, from 
associations, I am able to match that information up. It kind 
of happens when you have savvy professionals who are trained 
like myself and other college access professionals to match 
that information up. I am thinking about Pell Grant students 
and the graduation rates for Pell Grant students. Or if I am 
talking to a student who will be a Pell Grant recipient, I am 
not going to send them to a school that does not do a great job 
graduating low-income students. So that is a piece.
    Senator Murphy. Listen, I think you are fantastic at your 
job and there are other professionals that are fantastic at 
their jobs. It is really easy for you to go figure out what the 
student-to-teacher ratio is at a particular school. That is 
data that is available.
    Ms. Lightfoot. Absolutely.
    Senator Murphy. It is not a problem to go find out what the 
cost is of a particular school.
    Ms. Lightfoot. You got it.
    Senator Murphy. But, it is not easy to find out what the 
average earnings of a graduate of a particular school is or 
what their ability to get a job in their major is.
    Mr. Schneider, I assume that is in part because in 2008 we 
passed a law prohibiting the Federal Government from collecting 
data on a student record basis that would allow us to track how 
a student does after they graduate college.
    Dr. Schneider. Yes. In part the ban on student level data 
is essential to blocking this kind of movement forward. Yes, 
that is true. Though as Senator Warren notes, the FSA already 
has an incredible database that could be merged and matched 
with other data.
    The States that I work with actually use the State 
unemployment insurance data, merging it back with the State's 
student level data to track outcomes into the labor market and 
wages going forward. Tennessee is actually one of----
    Senator Murphy. Well, as you note in your testimony, that 
has pretty significant limitations.
    Dr. Schneider. Well, we believe it has significant 
limitations. We do not have a basis to check because the IRS 
has not shared its data with States despite the fact that we 
have asked the IRS to match the data with all the privacy 
concerns in place. We do not know what the bias is actually.
    Senator Murphy. The colleges lobbied hard for this 
prohibition on student records that track students after 
colleges. The reason that was given was because of these 
potential problems with data protection. You said in your 
testimony you believe that a lot of those concerns can be 
answered and have been answered in terms of the ability to 
protect data.
    Dr. Schneider. Absolutely. Sometimes this concern for 
privacy is really a smoke screen to protect schools from the 
truth actually.
    Senator Murphy. Thank you, Mr. Chairman.
    Ms. Lightfoot. Can I make a comment? I mentioned this in my 
testimony, but graduation rates, retention rates, percent of 
financial aid met, and average indebtedness at graduation, year 
1 to year 2 where retention is very important for me to help 
guide a student on best fit.
    Senator Murphy. My only point is that, of the five things 
that you mentioned, Mr. Schneider, No. 5 to me, is the one that 
we have the hardest time translating to students. How much am I 
going to make? Am I going to get a job in the field that I am 
studying? If we add anything to the data collection that we 
require, that would seem to be the most useful.
    Dr. Schneider. That should be at the program level, not at 
the institution level.
    The Chairman. Thank you, Senator Murphy.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. I think I am the last one at this 
point. We are coming to the end of what has been a very 
interesting hearing.
    We have just come to the end in this committee of a very 
successful process with regard to elementary and secondary 
education, for which I commend both our Chairman and our 
Ranking Member.
    One of the principles that emerged from that process was 
the notion of the dashboard in the context of what the signals 
are that a particular school may be failing or may be failing 
certain of its students. It strikes me that the dashboard 
concept--when you are dealing with a lot of information of 
trying to extract from that information a simple, 
comprehensible--you can look at it on one screen measure, which 
would then allow you, if you see something that concerns you, 
to look back into the data more deeply would be a sensible 
model to have in mind as we approach this question. Do you 
agree with that thought or disagree with that thought? Anyone.
    Ms. Santiago. I agree with that. In my testimony, I 
suggested in this era of having Netflix and Amazon, and you can 
start with a preference and go deeper and deeper as you start 
the process, that we have the ability to create an interface 
that will do that.
    Senator Whitehouse. It is not so much the question that 
there is a lot of data and there is a lot of information. That 
is not the problem. The problem is that we do not have that 
simple series of interfaces that gives you the depth of 
information that you need at the level that you want.
    Ms. Santiago. It allows you to filter, and a dashboard can 
give you the first step. But, as any choice you make, we need 
to go deeper and deeper to make sure it is a fit. The way you 
do that is to go from a dashboard into more challenged 
information that you need.
    Senator Whitehouse. You may not be very interested in going 
deep into your engine and pulling the oil at the end of the 
stick and finding out whether it is good or full or not, but 
when that little red light comes on, suddenly it gets 
interesting to do that and you are supposed to. It is the 
dashboard that facilitates that as well. Correct?
    Ms. Santiago. Yes.
    Senator Whitehouse. Does anybody disagree with that? OK.
    Let me ask a second question, which is that it is a tale as 
old as time, but where the profit motive goes, fraud and 
predatory behavior can often follow. It does appear from a 
considerable number of stories that we have seen that the 
profit motive's incursion into higher education has been 
followed by fraud and predatory behavior, particularly a for-
profit model that seeks very intensively to recruit students, 
seeks very intensively to milk them of their funds, 
particularly their grant and loan funds. As to the actual 
quality of education that is then produced or as to the actual 
job placement that should follow, it appears from the stories 
that we have seen that in many cases, the business model 
appears complete once the check has been cashed, and the rest 
is sort of caveat emptor.
    That seems to be a new concern that has emerged in this 
area. You might have had schools before that did not do a very 
good job, but that was often because they just did not know how 
to do any better. The predatory nature of some of what we have 
read about perhaps might be something that we should be looking 
at or that might create new risks as we try to make sure that 
students have the right kind of information.
    Do any of you have any thoughts on that concern? Dr. 
Schneider?
    Dr. Schneider. I believe that the kinds of measures that we 
are talking about should be applied to every school regardless 
of its status, whether or not it is for-profit, not-for-profit, 
public. Students are going to choose schools and they need much 
better information. They do not even know if a school is 
proprietary or not-for-profit or whatever. In some ways it is 
irrelevant. What they really need to know is, as I said, am I 
going to get in, am I going to get out, how long is it going to 
take, how much will it cost, and how much will I earn. We need 
to measure those things, report those for every school, for 
every program regardless of who is offering them.
    Senator Whitehouse. Ms. Santiago.
    Ms. Santiago. I do think the added point here to what you 
shared is the predatory part. We do find many low-income, 
first-generation students who they have actively reached out to 
engage. I do think there is an added responsibility to make 
sure that they are getting good information, they are aware of 
the potential predatory nature of what is out there. Because 
they are trying to reach the American dream, they think if it 
comes to them, that they are wanted, they work around their 
schedule, help them get aid and a job, only to find out that 
that was a bill of goods that they did not come through on. I 
think we have a responsibility to our young people and those 
who are not so young to make sure that we protect them from 
that.
    Senator Whitehouse. Certainly the TV ads show nothing but 
sunshine and success.
    Thank you very much.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Whitehouse.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    I wanted to ask Dr. Schneider a couple questions. I 
appreciated your five important questions of getting in, 
getting out, the timeline, how much will it cost, and how much 
will you earn.
    I think one of the important parts of breaking the 
bachelor's addiction is having the information about success. 
In South Carolina, we have a great need for middle skills. I 
think what you were talking about really leads in that 
direction in the conversation. I would love to hear your input 
and your perspective on our ability to fill the pipeline with 
students who understand and appreciate the necessity of more 
than a high school diploma but perhaps you can make a very good 
income without a college education, without the 4-year 
baccalaureate degree.
    Dr. Schneider. This is one of my missions in life right 
now, and that is to try to alert students to the value of 
technical degrees that are granted most often by community 
colleges. If we go to the detailed data that I present in many 
States, not South Carolina by the way, but in Tennessee, Texas, 
Colorado, or Minnesota, it is a consistent pattern that 
students with technical degrees can fit into the middle class. 
If you know how to fix things, if you know how to fix people 
and you have a technical degree or certificate, an associate of 
applied science or a certificate in those kinds of technical 
degrees, you can be in the middle class and you could earn more 
than bachelor degree students.
    Senator Scott. Absolutely. We need to work on getting that 
information more available throughout my great State of South 
Carolina.
    That really does bring me to another question for Ms. 
Lightfoot. Listening to your story of rising out of poverty 
through the power of education reminds me in some way of my 
story of growing up in a single-parent household and through 
the power of education, rising out of poverty as well.
    I would have suggested to you, had I known you then, that 
you could have come to the University of South Carolina, 
Charleston Southern, Clemson University, Presbyterian College. 
There are lots of great choices. We will have that discussion 
at another time. God bless the education anyway.
    I do think that there is an opportunity--and I would love 
to engage you in this conversation about how we help our 
students make better decisions from a cost perspective, 
understanding and appreciating perhaps the opportunity of 
technical schools or 2-year schools, coupled with a Pell Grant 
to really reduce the burden long-term, which actually improves 
the return on the investment long-term as well.
    Ms. Lightfoot. Absolutely. You all will hear me scream and 
shout how important it is to have that college access 
professional--the trained professional--to lead students in a 
path to learning about what those middle skills are. When 
students hear the word ``college,'' they automatically think of 
a 4-year degree, but where are they getting the messaging about 
a high-quality credential? I think the language needs to change 
around that so students can find their place in the 
apprenticeship program, in the technical program in the 4-year 
school, in the State school, and the private sector as well. I 
really think it is about the language and the message around 
college and where that student fits in to be led to some of the 
phenomenal opportunities there are at lower-cost institutions.
    Again, just because it is a better cost-effective value 
does not mean that it is going to be a good fit for the 
student. That student needs to be led, whether it is assessing 
their basic skills values, their values, their career interest 
with their skills matching them up to the best fit 
postsecondary opportunity.
    Senator Scott. I was referring back to part of your written 
testimony and you alluded to it in your oral presentation that 
the student who was unable to finish their education because of 
the financial hurdles during the first semester. With good 
information, it is definitely available, but having that good 
information accessible to the student at the right time, not 
when you are graduating from high school, but perhaps during 
their junior year, as you and Senator Alexander spoke about, I 
think would be very important.
    Ms. Lightfoot. I know. I think that would be life-changing 
using prior prior-year asset information and encouraging 
colleges to get that information to the students earlier so the 
students will have time to fill the gap and accumulate the 
funds to make college affordable.
    Senator Scott. I would just make my last point, not really 
ask a question, though I did want to talk to Ms. Santiago about 
being bilingual or trilingual with the data being the third 
part of that. We will have to have that conversation another 
time.
    I do think it is important that while we are pretty decent 
at gathering information perhaps as a Federal Government, I am 
not sure that we are in the right place to start with the 
dissemination of the information for the average student and 
the average place because according to most of the studies that 
I have read, most of the statistics that I have digested, we 
may gather the information well, but it does not seem like the 
average student, particularly adult students, are looking to 
the Federal Government to figure out how to make choices.
    I reached out to a fantastic high school senior from South 
Carolina who has made the decision, much like yourself, not to 
go to school in South Carolina, which I do not understand that 
decision. He had a great teacher who helped him understand and 
appreciate the options around the Nation that did not come from 
the information. It came from a relationship. A part of the 
conversation I think we need--at least a part of my thought 
process is I think I would like to have invested in the 
conversation or woven into the conversation is the importance 
of relationships because most students find their best sources 
not through public information, but perhaps information that is 
available publicly, but you have to have some conduit, some 
mediator in the middle of that. It seems to be teachers and 
parents and making sure that those folks have access to the 
information is incredibly important as well.
    Ms. Lightfoot. That is music to my ears.
    Senator Scott. Yes, ma'am. You do not want to hear me sing 
it. That is for sure.
    [Laughter.]
    The Chairman. Thank you, Senator Scott.
    Senator Murray.
    Senator Murray. Yes. I just had one other area I wanted to 
ask Dr. Schneider about. Your institution conducts research to 
develop tools to improve and provide assistance regarding 
school crime and safety. According to that research, the number 
of forcible sex crimes reported is up 52 percent in the past 
decade. Half of those crimes in your data took place in 
residence halls at 4-year institutions.
    How can the Federal Government use that data to help 
improve college safety and climate?
    Dr. Schneider. The way I think about any of these kinds of 
indicators--there are two fundamentally different ways of 
thinking about it.
    On the first hand, there is consumer information, and that 
is getting the information out, understandable, usable, and 
used. We have an obligation to put those data out into the 
world and then let the consumers change their behavior, their 
choices based on that information.
    The second is regulatory. That is your business not my 
business. I do not know how you regulate on that kind of 
information, but I do believe that the consumer information 
part--we need to make any kind of data about safety, any kind 
of data about student outcomes, any of those kinds of data--we 
need to choose the data that is the most important to students 
and make it easily understood and easily accessible. Data that 
is hidden in data warehouses is not useful.
    Senator Murray. For a student or their family who is trying 
to decide a college option, how should they evaluate that data 
and the national trend?
    Dr. Schneider. Well, I think the problem is--and someone 
mentioned this earlier--everybody thinks that they are the 
exception not the rule. I do believe that these kinds of data 
need to be made available to students.
    I must admit that I am totally in support of shaming people 
and shaming institutions. I do not have a problem with marking 
things red, yellow, green. You get a red sticker, you are 
really off the chart on this measurement in a bad way. I think 
shame is a powerful motivator.
    Senator Murray. Right now, that is not out there and 
available.
    Dr. Schneider. No. I agree. We need to make that more 
widely available.
    Senator Murray. Thank you.
    The Chairman. I just have a couple more questions.
    Ms. Lightfoot, Tennessee has a new program called Tennessee 
Promise. That means community college tuition is free to all 
qualified high school graduates or technical institutions. 
There are approximately 66,000 high school seniors in the State 
of Tennessee. Of that number, 44,000, or 68 percent, completed 
a FAFSA application, a student aid form, through April 24. That 
is a big increase. Last year it was 55 percent instead of 68 
percent, a 23 percent increase.
    In my conversations with Tennesseans--this is what I have 
heard, and you are in the midst of this. Tell me if I am right 
or wrong about this. The Governor, in order to promote 
Tennessee Promise, recruited a number of volunteer mentors to 
help with the students who have to fill out these 108 questions 
that are on the--I raise my hand because I hold that thing up a 
lot--108 questions. The mentors tell me that they are spending 
most of their time not advising the students about their lives, 
the amount of loans available, or where to go to school, but 
helping them fill out this form.
    You talked a lot about translators and how valuable it is 
to have a translator to take all this information on community 
colleges and make it useful to do what Dr. Schneider said he 
hopes more people will do. If we are successful in simplifying 
the FAFSA from 108 questions to 2 or 5 or 10 or 12 or 15 
questions, would that save time of college employees such as 
yourself or high school counselors who could spend their time 
serving as translators for where a student might go to school 
rather than filling out a form filled with unnecessary 
questions?
    Ms. Lightfoot. Absolutely. Definitely a simplified form of 
the FAFSA would ease a lot of burdens on students and families, 
even those who do not choose to go to a 2-year college. A more 
robust training around the mentorship program I think would be 
extremely helpful as well.
    The Chairman. Does UTC and the community college have 
employees who spend a lot of time helping students fill out 
these forms?
    Ms. Lightfoot. A lifetime, no, but definitely a couple of 
days and waiting for students to get their taxes back and 
explaining what it means. I think a lot of time, once that 
professional is there to help the student, it is interpreting 
what the FAFSA means and what the FAFSA will get them that 
takes even more time than completing that particular form.
    The Chairman. As you stated, in Knoxville, they told me 
they hired two people to help students fill out the FAFSA. Why 
would it not be better to hire two people to serve as 
translators to help them figure out what school to attend?
    Ms. Lightfoot. I think increasing the capacity of every 
school, every college, 4-year, 2-year college to make financial 
aid more accessible and easily understandable would be a key 
and not just for 2-year colleges and students who are going to 
the Tennessee Promise. So absolutely, increasing the capacity 
of these colleges in their financial aid departments and their 
student advising departments because at the end of the day it 
is about student completion as well, and if they can whiz 
through the FAFSA and get that out of the way and understand 
what the FAFSA means and what the FAFSA will get them in terms 
of financial aid, scholarships, grant dollars, it will make a 
lot of lives a lot better.
    The Chairman. My last question. Dr. Schneider, your 
testimony reflects my bias or my understanding, and I think it 
might be not so different than what I heard from Senators 
today, which is that the Federal Government does a good job of 
collecting data but is probably not the best entity to put it 
into a form that is most useful to students.
    Senator Durbin was telling me yesterday about how the FBI's 
computer system was so bad that the photographs of the 9/11 
conspirators had to be hand-carried and mailed because they 
could not be sent on their computer system. They then wasted 
$800 million trying to fix it.
    The Obamacare website got a lot of attention.
    Senator Murray and I are working on what to do about the 
electronic medical records. The Government just does not seem 
to be able to do that kind of thing very well.
    On the other hand, some universities do a good job. The 
University of Texas president came by to see me, and he was 
talking about just what you talked about, about anybody who 
wants to go there can go onto a website, select the program--I 
think you may have had something to do with creating that--but 
select the program and they tell them about the program, tell 
them how much it would cost to go to that program, and then 
when they got out, what the job placement was for that. Now, 
that would seem to be ideal.
    How do we, in a practical matter, as legislators take this 
information about community colleges and cut it down to size so 
that we do not waste anybody's time collecting information from 
almost 2,000 public and private community colleges or technical 
institutes? How do we encourage the dissemination of it in 
useful ways? If we try to do it ourselves, we will end up like 
the electronic medical records or the Obamacare website or the 
FBI computer system. How do we encourage that? Our temptation 
often is, well, here is a problem, we will fix it, and we do 
not fix that kind of thing very well. How do we cut this down 
to size? Then how do we enable others to take this information 
and make it useful?
    Dr. Schneider. Clearly that is a congressional task because 
so much of the data that is collected has been mandated by 
Congress.
    My suggestion would be to work closely with NCES which 
tracks the usage of IPEDS data, just find out what is not being 
used, and then we will need congressional action to eliminate 
it. Everything in IPEDS had a reason at one time, and much of 
it has no reason or the burden of collecting these data are in 
excess of the benefit. I think every decision we make about 
data has to be a benefit-cost analysis about it. My suggestion 
would be working closely with NCES to track the usage of these 
things and just start eliminating many of these surveys that 
have accumulated over time.
    In my written testimony, I suggested some of the kinds of 
data that could be used to track the wage outcomes much more 
effectively than I am doing at the current time, that my State 
partners are doing at the current time, including the State of 
Tennessee using UI data, the unemployment insurance wage data. 
I have worked with the State of Tennessee asking the IRS to 
provide the match data, and we thought we had an agreement and 
that agreement disappeared. The UT system, the State of Texas 
Higher Education Coordinating Board, other States have been 
asking for the merged wage data so that we could get much more 
accurate tracking of students into and through the labor 
market. At the current time, the IRS is saying that they do not 
have the statutory authority to do it, which I disagree by the 
way.
    In terms of dissemination--I think everybody I know is 
waiting for the merged FSA-IRS institution level data that is 
supposedly going to come out sometime this summer. What I am 
going to do with my work with ``Money Magazine'' is take that 
data and plug it into the work we are doing at the current 
time. I think we just need to make sure those data are put out 
in the public domain and let everybody go at it.
    The Chairman. Thank you, Dr. Schneider.
    Let me invite Dr. Schneider, Ms. Santiago, Ms. Lightfoot, 
and Ms. Mitchell if things occur to you today or if you want to 
emphasize something that you had in your testimony or that you 
think about when you go home, particularly if there are 
specific suggestions of things we ought to do or the way we 
ought to do it, we would welcome that. We would invite you to 
send that to us. You are the experts. We are not. We are going 
to be passing a law in the next few months that will affect 
things for the next several years. If a specific change needs 
to be made, please tell us, and we will do our best to include 
it.
    If Senators have additional questions, they will ask them. 
The hearing record will remain open for 10 days to submit 
additional comments and any questions for the record Senators 
have.
    We plan to hold the next hearing of this committee on 
reauthorizing the Higher Education Act on Wednesday, May 20.
    It has been a very useful hearing. I thank the witnesses. 
Ms. Mitchell, thank you for coming all the way from Seattle. 
That is a long way to come. Senator Murray does it every 
weekend.
    Ms. Mitchell. Thank you for having me.
    The Chairman. I know it can be done, but we are glad you 
came.
    Ms. Lightfoot, it is good to see a Tennessean.
    Ms. Santiago, thank you.
    Dr. Schneider, thank you.
    The hearing is adjourned.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]

                                  
                             [all]
      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
